<html>
<title> - [H.A.S.C. No. 113-57]PLANNING FOR SEQUESTRATION IN FISCAL YEAR 2014 AND PERSPECTIVES OF THE MILITARY SERVICES ON THE STRATEGIC CHOICES AND MANAGEMENT REVIEW</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 113-57]
 
    PLANNING FOR SEQUESTRATION IN FISCAL YEAR 2014 AND PERSPECTIVES

         OF THE MILITARY SERVICES ON THE STRATEGIC CHOICES AND

                           MANAGEMENT REVIEW 

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 18, 2013


                                     
[GRAPHIC] [TIFF OMITTED]

                                     







                  U.S. GOVERNMENT PRINTING OFFICE
82-963                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       COMMITTEE ON ARMED SERVICES

                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MARTHA ROBY, Alabama                 SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana

                  Robert L. Simmons II, Staff Director
                Jack Schuler, Professional Staff Member
                        Spencer Johnson, Counsel
                           Aaron Falk, Clerk



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Wednesday, September 18, 2013, Planning for Sequestration in 
  Fiscal Year 2014 and Perspectives of the Military Services on 
  the Strategic Choices and Management Review....................     1

Appendix:

Wednesday, September 18, 2013....................................    51
                              ----------                              

                     WEDNESDAY, SEPTEMBER 18, 2013
PLANNING FOR SEQUESTRATION IN FISCAL YEAR 2014 AND PERSPECTIVES OF THE 
    MILITARY SERVICES ON THE STRATEGIC CHOICES AND MANAGEMENT REVIEW
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     3

                               WITNESSES

Amos, Gen James F., USMC, Commandant of the Marine Corps, U.S. 
  Marine Corps...................................................    10
Greenert, ADM Jonathan W., USN, Chief of Naval Operations, U.S. 
  Navy...........................................................     6
Odierno, GEN Raymond T., USA, Chief of Staff, U.S. Army..........     4
Welsh, Gen Mark A., III, USAF, Chief of Staff, U.S. Air Force....     9

                                APPENDIX

Prepared Statements:

    Amos, Gen James F............................................    97
    Greenert, ADM Jonathan W.....................................    69
    McKeon, Hon. Howard P. ``Buck''..............................    55
    Odierno, GEN Raymond T.......................................    59
    Smith, Hon. Adam.............................................    57
    Welsh, Gen Mark A., III......................................    84

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mr. Barber...................................................   116
    Ms. Bordallo.................................................   110
    Ms. Duckworth................................................   117
    Mr. Lamborn..................................................   116
    Mr. Langevin.................................................   109
    Mr. Runyan...................................................   117
    Mr. Shuster..................................................   116
PLANNING FOR SEQUESTRATION IN FISCAL YEAR 2014 AND PERSPECTIVES OF THE 
    MILITARY SERVICES ON THE STRATEGIC CHOICES AND MANAGEMENT REVIEW

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                     Washington, DC, Wednesday, September 18, 2013.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good morning, ladies and gentlemen. The House Armed 
Services Committee meets today to receive testimony on 
``Planning for Sequestration in Fiscal Year 2014 and 
Perspectives of the Military Services on the Strategic Choices 
and Management Review.''
    I would like to begin by expressing the committee's shock 
and sadness about this week's tragic shooting at the Washington 
Navy Yard. The victims and their families continue to be in our 
thoughts and prayers. At this time, I request the committee 
hold a moment of silence to honor those patriots who lost their 
lives.
    [Moment of silence observed.]
    The Chairman. Thank you.
    Admiral Greenert, I hope you will convey the committee's 
deepest sympathies for all those who were affected under your 
command.
    I spoke yesterday to the Secretary and asked him to express 
our thoughts also to every member of the Naval family that he 
comes in contact with.
    The Nation is grieving with you.
    Admiral Greenert. Thank you, Mr. Chairman, I appreciate it.
    The Chairman. As you are all aware, this committee has held 
numerous hearings on the impact of sequestration to our 
national security since 2011.
    While many of us have warned about the catastrophic impact 
these cuts have had to our military readiness and offered 
specific legislation to fix them, we have nonetheless 
encouraged the Department of Defense to fully plan for 
sequestration. Our attitude has been work for the best, but 
prepare for the worst. With that said, we welcome this review 
in the hopes that it would answer some of the many unanswered 
questions we have about how the Department will operate in a 
post-sequestration budget environment.
    While I appreciate the intent of this review as an 
assessment, frankly, I was disappointed and troubled by the 
lack of specificity it offered. The review contained little in 
the way of new information, leaving us only marginally more 
informed than we were 2 years ago.
    Last month, Secretary Hagel directed each service to 
develop two separate Future Years Defense Programs for fiscal 
year 2015, one at the President's budget level and an alternate 
accounting for full sequestration. While we all would agree 
that the higher budget level would be preferable, our focus 
today is on the alternate program under development.
    Earlier this month, I wrote to Secretary Hagel, urging him 
to authorize each of you to discuss the specific impacts you 
have identified in the preparation of your alternate program, 
including the reductions in size of the force, the 
modernization programs that will be canceled or curtailed, 
bases that will have to be closed, capabilities that no longer 
can be sustained, and training that will be limited.
    In your testimony today, I hope you will be frank about the 
deviations that will have to occur to the President's fiscal 
year 2015 budget request as a result of sequestration and how 
those decisions will impact the execution plans for fiscal year 
2014.
    Gentlemen, for 2 years, you or your predecessors have come 
to this committee describing the consequences of sequestration 
in generalities and percentages. The Chairman of the Joint 
Chiefs told us you can't be cut one more dollar without 
changing the defense strategy, but when you're cut, 
administration downplays the impacts. Your credibility with 
this committee and with me is on the line this morning.
    I respect each of you deeply. But now is the time for you 
to act. Each of you carries the responsibility to give Congress 
your best and unbiased military advice. Each of you has a 
higher obligation to provide security for the American people. 
Today I expect to hear in very clear terms what elements of 
that security you will no longer be in a position to provide 
should sequestration continue.
    I expect to hear what risk you will have to assume in order 
to provide it.
    Last week we had a hearing with Secretary Kerry, Secretary 
Hagel and General Dempsey. I have been talking for the last 
couple of weeks against going into Syria or going anywhere else 
with this military until the sequestration problem is fixed, 
until we have back-loaded the money that has been taken from 
defense over and above the $487 billion, which all of you said 
you could live with but not a dollar more. But they each 
pointed out in their testimony that I was probably focused too 
much on just money; when things evolve, develop, occur about 
our national security, we would find the money. There is no 
question we will find the money. But it comes out of something 
else, something else that is very important. I would like to 
hear from you today what that would be.
    I look forward to hearing your testimony. I thank all of 
you for your witnesses for being here, for your service to this 
Nation.
    And now I recognize Ranking Member Smith for his statement.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 55.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    First of all, I join the chairman expressing my condolences 
to Admiral Greenert and the Navy and to our entire military 
family for the tragic and horrific incident this week. Our 
thoughts and prayers are with you. Whatever we can do to help, 
please let us know.
    Admiral Greenert. Thank you, Mr. Smith.
    Mr. Smith. I thank the chairman for his leadership on that.
    And I also thank the chairman for the consistent hearings 
that we have had on sequestration. This is a significant 
challenge, and I don't think anybody in this Congress has been 
more out front than Chairman McKeon and early explaining to us 
what was coming and the challenges in trying to sound the 
alarms, so that hopefully we could do something about it. And I 
appreciate those hearings and those discussions.
    I would hope today that we would skip the normal partisan 
arguments about whose fault it is. We have, gosh, done that 
back and forth throughout so many times that I think just about 
everybody in this room could probably repeat what I would say 
and then what others would say, and so we know all that. We 
don't need to have that argument. We need to figure out where 
we are going to go and how are we going to deal with this. And 
it is a multifaceted problem.
    Certainly sequestration, which is set to go on for another 
9 and a half years, and we have only been dealing with it now 
since March. Doing the math in my head, but I think that is 
roughly 6 months. Those 6 months have been bad, the choices 
that have had to be made. Members in their individual 
districts, if you have military bases there, you see the impact 
on the military; you certainly see the impact on the 
contractors. But that is 6 months, we have got 9 and a half 
more years to go of sequestration if we don't do something 
about it.
    In addition, here we go again in terms of another threat of 
government shutdown as we come up to September 30th. And it is 
to the point where there is virtually no hope of getting an 
appropriations bill. We are hoping that we can get a CR 
[continuing resolution]. And a CR is, in many ways, depending 
on who you are, as bad as sequestration in terms of how it 
impacts what money can be spent by the various departments 
within DOD [Department of Defense]. Then, of course, shortly 
thereafter, we have the debt ceiling and the debate over 
whether or not to raise that.
    I will just say that you don't have the debate with your 
credit card once you have incurred the charges; you pay the 
bill. Then you can have a discussion about whether or not you 
want to continue to rack up bills that are that high. But if 
you are the United States Government, I don't think you have 
the option of not paying your bills. But we will face that as 
well.
    On all of those fronts, we need to figure out what money we 
have. I would hope that Congress will continue to work to solve 
sequestration, to pass appropriations bills, to get past the 
debt ceiling. I know that is going to be a challenge, but it is 
not something that we can throw up our hands on and say, No, we 
are not going to get there. We have to keep trying to get 
there. And in the meantime, you gentlemen have to try and 
figure out whether or not we are going to get there or how 
short of there we are going to wind up and try to figure out 
how we are going to spend the money.
    And I take the chairman's point about, you know, we would 
like more specifics, but part of the challenge that I do want 
to remind the committee is you are not free at DOD to simply 
make the decisions that you want to make. You are, to some 
degree, reliant on us for a number of those decisions. 
Personnel costs are an enormous part of what we face. But if 
you want to do anything with retirement or anything with health 
care, you have to come through us.
    And about the only clear message that Congress has sent you 
is, Don't cut that. That has been a lot of different things, 
from the Guard to the retirement of certain ships, and on and 
on and on. But you are limited by what we allow you to do in 
many instances, and then you have to sort of backfill from 
there.
    So, as we have this discussion, I hope Members will 
approach it in that cooperative spirit, not just say What are 
you going to do but, more accurately, look at it and say, What 
can we realistically do together? Because I agree with the 
chairman, with the cuts we are facing, we are going to have a 
fundamental change in strategy. But to get to that change in 
strategy, it is the nature of our system, no one person is in 
charge of it. The executive branch and the legislative branch 
have to work together to come up with whatever that new system 
is. And right now, we are not.
    So I guess if I have one hope for this hearing, it is that 
we can sort of have that cooperative spirit. And if you 
gentleman tell us, hey, look, here is where we need to cut and 
if any member of this committee says, no, we can't do that, 
well, then, where do you want to cut? What advice do we have 
for you on what would be acceptable to us on how we restructure 
our military strategy, given the fiscal realities that we have 
all talked about. So I hope we can have that discussion.
    Again, I thank the chairman for his leadership on focusing 
on this issue. And I would say I look forward to your testimony 
and the questions, but honestly, I really don't, because this 
is not an easy subject, and there is no good way out of it. We 
will deal with it as best we can.
    Thank you.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 57.]
    The Chairman. Thank you.
    Let's start with General Odierno and go right down the line 
please.
    General.

STATEMENT OF GEN RAYMOND T. ODIERNO, USA, CHIEF OF STAFF, U.S. 
                              ARMY

    General Odierno. Chairman McKeon, Ranking Member Smith and 
other distinguished members of this committee, thank you for 
the opportunity to speak with you about sequestration in fiscal 
year 2014 and the strategic choices facing the Army.
    The United States has drawn down military forces at the 
close of every war, and today is no different. This time, 
however, we are drawing down our Army before a war is over and 
at a time when there is grave uncertainty in the international 
security environment that we witness every single day.
    Today, the total Army, the Active Army, the Army National 
Guard, and the U.S. Army Reserves remains heavily committed in 
operations overseas and at home. More than 70,000 soldiers are 
deployed as we sit here today, including 50,000 soldiers in 
Afghanistan and nearly 88,000 soldiers are forward-stationed 
across the globe.
    During my more than 37 years of service, the U.S. Army has 
deployed soldiers to fight in more than 10 conflicts, including 
the longest war in our Nation's history, in Afghanistan. No one 
can predict where the next contingency will arise that will 
require the employment of ground forces. We only know the 
lessons of the past. In every decade since World War II, the 
United States has deployed U.S. Army soldiers to defend our 
national security interests. There are some who have suggested 
there will be no land wars in the future. While I wish that 
were true, unfortunately, there is little to convince me that 
we will not ask our soldiers to deploy again in the future.
    We have also learned from previous drawdowns that the full 
burden of an unprepared and hollow force will fall directly on 
the shoulders of our men and women in uniform. We have 
experienced this too many times in our Nation's history to 
repeat this egregious error again.
    As Chief of Staff, it is my responsibility to provide my 
best military advice in order to ensure that we have an Army 
that will meet our national security needs in the complex, 
uncertain environment of the future. It is imperative that we 
reserve the full range of strategic options for the Commander 
in Chief, the Secretary of Defense and the Congress. Together, 
we must ensure our Army can deliver a trained and ready force 
that deters conflict but, when necessary, has the capability 
and capacity to execute a sustained, successful major combat 
operation.
    The Budget Control Act [BCA] with sequestration simply does 
not allow us to do this. If Congress does not act to mitigate 
the magnitude and speed of the reductions under the BCA with 
sequestration, the Army will not be able to fully execute the 
requirements of the 2012 Defense Strategic Guidance. By the end 
of FY14 [fiscal year 2014], we will have significantly degraded 
readiness in which 85 percent of our Active and Reserve brigade 
combat teams will not be prepared for contingency requirements.
    From fiscal year 2014 to fiscal year 2017, as we continue 
to draw down and restructure the Army into a smaller force, the 
Army will continue to have degraded readiness and extensive 
modernization program shortfalls. We will be required to end, 
restructure or delay over 100 acquisition programs, putting at 
risk the Ground Combat Vehicle Program, the Armed Aerial Scout, 
the production and modernization of our other aviation 
programs, system upgrades for unmanned aerial vehicles and the 
modernization of our air defense command and control systems, 
just to name a few.
    Only in fiscal year 2018 to fiscal year 2023 will we begin 
to rebalance readiness and modernization. But this will come at 
the expense of significant reductions in end strength and force 
structure. The Army will be faced to take further end strength 
cuts from a wartime high of 570,000 in the Active Army, 358,000 
in the Army National Guard, and 205,000 in the U.S. Army 
Reserves to no more than 420,000 in the Active Army, 315,000 in 
the Army National Guard and 185,000 in the U.S. Army Reserves.
    This will represent a total Army end strength reduction of 
more than 18 percent over 7 years, a 26 percent reduction in 
the Army, in the Active Army, a 12 percent reduction in the 
Army National Guard, and a 9 percent reduction in the U.S. Army 
Reserves.
    Additionally, this will result in a 45 percent reduction in 
Active Army brigade combat teams. In my view, these reductions 
will put at substantial risk our ability to conduct even one 
sustained major combat operation.
    Ultimately, the size of the Army will be determined by the 
guidance and funding provided by Congress. It is imperative 
that Congress not implement the tool of sequestration. I do not 
consider myself an alarmist. I consider myself a realist. 
Today's international environment and its emerging threats 
require a joint force with a ground component that has the 
capability and the capacity to deter and compel our adversaries 
who threaten our national security interests.
    The Budget Control Act and sequestration severely threaten 
our ability to do this.
    I want to thank you for the opportunity to speak with you 
today, and I look forward to your questions to expand on the 
comments that I made. Thank you very much, Chairman.
    [The prepared statement of General Odierno can be found in 
the Appendix on page 59.]
    The Chairman. Thank you.
    Admiral.

  STATEMENT OF ADM JONATHAN W. GREENERT, USN, CHIEF OF NAVAL 
                     OPERATIONS, U.S. NAVY

    Admiral Greenert. Chairman McKeon, Ranking Member Smith, 
and distinguished members of the committee, thank you for the 
opportunity to testify about the Navy situation in fiscal year 
2014 and our perspective on the recent Strategic Choices and 
Management Review.
    But Chairman, before I address that and this statement of 
mine, please indulge me.
    I would like to extend my deep condolences to the families, 
the friends, and the coworkers of the victims of Monday's 
events at the Washington Navy Yard.
    Chairman, we lost shipmates on Monday. The Secretary of the 
Navy and I and our leadership have our full attention on 
ensuring that the victims' families and their coworkers are 
provided with the care and the support that they need and that 
they deserve during this difficult time.
    We are grateful for the teamwork and the heroism which the 
first responders showed when they reacted, and we are working 
closely with the FBI [Federal Bureau of Investigation] and 
other law enforcement authorities to conclude this 
investigation.
    Now, as directed yesterday by the Secretary of Defense, the 
Secretary of the Navy and me, we are reviewing the security 
procedures and the access control for all our Navy 
installations around the world. I expect to have a rapid review 
completed within 2 weeks, which, of course, we will share with 
you. Nothing matters more to us than the safety and security of 
our people.
    I know you are aware of the DOD, the Department of Defense 
IG [Inspector General] report released yesterday that cites 
cost-control measures as a potential cause for vulnerabilities 
in contractor access procedures for our bases.
    Chairman, I have read the report. We are reviewing it right 
now. And to the degree we have vulnerabilities, we will correct 
them, and we will do it expeditiously. We are grateful to the 
DOD IG for working with us on this, and I can assure you, 
however, that the cost-control measures that were mentioned in 
this report have nothing to do with budget shortfalls or 
sequestration itself.
    We don't cut budgetary corners for security, Chairman. The 
two are unrelated.
    Now if something needs added or changed, we will fix it 
right away. Further, we will continue to work closely with the 
Department of Defense IG staff, and we will reconcile all these 
recommendations in this report I just held in my hand.
    Again, nothing is more important to me, Chairman.
    Now I would like to address with the time remaining two 
more points, our budget situation and our plan in fiscal year 
2014 and the long-term impacts of sequestration.
    Mr. Chairman, presence remains the mandate for the Navy. We 
have to operate forward where it matters, and we got to be 
ready when it matters. Recent events have clearly demonstrated 
our ability to do that. Quickly, we positioned ourselves, and 
we offered options to the President in this past month. This 
ability also reassures our allies, and it ensures that U.S. 
interests around the world are properly served.
    Now, as we prepare for 2014, sequestration is going to 
further reduce our readiness. The impacts of sequestration will 
be realized in two main categories, operations and maintenance, 
and our investments. There are several operational impacts, but 
the most concerning to me is that reductions in operation and 
maintenance accounts are going to result in having only one 
nondeployed carrier strike group and one amphibious ready group 
trained and ready for surge operations. We will be forced to 
cancel maintenance. This will inevitably lead to reduced life 
for our ships and for our aircraft; assure we will only conduct 
safety-essential renovation of facilities; and it will further 
increase the backlog in this area. We will probably be 
compelled to keep the hiring freeze in place for most of our 
civilian positions, and that will, of course, effect the 
spectrum and the balance of our civilian force.
    We will not be able to use prior year funds to mitigate 
sequestration cuts in our investment accounts like we could in 
fiscal year 2013. So, without congressional action, we will 
lose at least a Virginia-class submarine, a littoral combat 
ship and a float-forward staging base. And we will be forced to 
delay the delivery of the next aircraft carrier, the Ford, and 
we will delay the mid-life overhaul of the George Washington 
aircraft carrier. Also, we will cancel procurement of 11 
tactical aircraft.
    The key to a balanced portfolio, Chairman, is a spending 
bill and the ability to transfer money. We need to transfer I 
think about $1 billion into the operations and maintenance 
account and about $1 billion into our procurement accounts post 
sequestration, mostly so we can get shipbuilding back on track 
and to meet our essential needs. We will need to do this by 
January.
    Other program deliveries of programs and weapons systems 
may be delayed regardless, depending on the authority that we 
are granted to reapportion funds between accounts.
    Now when it comes to the Strategic Choices and Management 
Review, it is complete. And the Navy's focus now is on crafting 
a balanced portfolio of programs within the fiscal guidance 
that we were provided. More details of what we are doing there 
are outlined in my written statement, which I request be 
entered for the record.
    In summary, we will maintain a credible and modern sea-
based strategic deterrence. That is our number one program. We 
will maximize forward presence, as I passed to you before. That 
is what we need to do. And we will use ready deployed forces to 
do that. And we will continue investing in asymmetric 
capabilities while, with this committee's help, we will do our 
best to sustain a relevant industrial base.
    However, in a given fiscal scenario, within the Budget 
Control Act cost caps, there are numerous missions that are in 
the Defense Strategic Guidance passed that we signed up to a 
few years ago we can't perform. These are laid out in great 
detail in my written statement, and I will save you going 
through each and every one of these in my oral statement here.
    But applying one fiscal and programmatic scenario, we would 
result in a fleet inventory of about 255 ships in 2020. That is 
our benchmark year for the Defense Strategic Guidance. That is 
about 30 less than today. It is about 40 less than was in our 
Pres bud [President's budget] submission, and it is 51 less 
than our force structure assessment of 306 ships.
    So, Mr. Chairman, I understand the pressing need for the 
Nation to get its fiscal house in order. And I am on board with 
that, but I think we need to do it--I think it is imperative 
that we do it in a thoughtful manner to ensure that we sustain 
appropriate warfighting capability, that we have proper forward 
presence and readiness. Those are the attributes we depend on 
from our Navy--from your Navy.
    I look forward to working with the Congress to find 
solutions that will ensure our Navy retains the ability to 
organize, to train, and to equip the great sailors in defense 
of our Nation who operate in concert with the Marine Corps.
    My thanks to you and this committee for the support and 
care you have shown our Navy during this difficult time and in 
many other times. Clearly, you continue to have our best 
interests at heart. Thank you.
    [The prepared statement of Admiral Greenert can be found in 
the Appendix on page 69.]
    The Chairman. Thank you.
    General.

STATEMENT OF GEN MARK A. WELSH III, USAF, CHIEF OF STAFF, U.S. 
                           AIR FORCE

    General Welsh. Thank you, Mr. Chairman, Ranking Member 
Smith, and distinguished members of the committee.
    It is always an honor to appear before you. I thank you for 
your continued support of airmen and their families. The 
results of the SCMR [Strategic Choices and Management Review] 
were sobering, I think, to all of us, and if sequestration 
remains in place for fiscal year 2014, the Air Force will be 
forced to cut flying hours by up to 15 percent. And within 3 to 
4 months, many of our flying units will not be able to maintain 
mission readiness; will cancel or significantly curtail major 
exercises again; and will reduce our initial pilot production 
targets, which we were able to avoid in fiscal year 2013.
    Over the long term, of course, it will significantly impact 
our force structure, readiness and modernization. For force 
structure, over the next 5 years, we could be forced to cut up 
to 25,000 total force airmen, which is about 4 percent of our 
people. We also will probably have to cut up to 550 aircraft, 
about 9 percent of our inventory. And to achieve the necessary 
savings in aircraft force structure, we will be forced to 
divest entire fleets of aircraft. We can't do it by cutting a 
few aircraft from each fleet.
    As we look at which force structure we need to maintain, we 
will prioritize global, long-range capabilities and multirole 
platforms required to operate in a highly contested 
environment. Other platforms will be at risk.
    We plan to protect readiness to the maximum extent 
possible. We also plan to prioritize full spectrum training 
because if we are not ready for all possible scenarios, we will 
be forced to accept what I believe is unnecessary risk, which 
means we may not get there in time; it may take the joint team 
longer to win; and our people will be placed at greater risk.
    If sequestration continues, our modernization 
recapitalization forecasts are bleak. It will impact every one 
of our programs.
    These disruptions will, over time, cost more money to 
rectify contract breaches, raise unit costs and delay delivery 
of critical equipment. We are looking at cutting as many as 50 
percent of our modernization programs if the ALTPOM 
[Alternative Program Objectives Memorandum] is actually the way 
we go.
    We will favor recapitalization over modernization whenever 
that decision is required. That is why our top three 
acquisition priorities will remain the KC-46, F-35 and the Long 
Range Strike Bomber.
    The United States Air Force is the best in the world and is 
a vital piece of the world's best military team. That won't 
change even if sequester persists. And when called, we will 
answer, and we will win, but the impacts are going to be 
significant, and the risk occurs from readiness in the ways 
that impacts our airmen.
    Thank you for your efforts to pass a funding bill that 
gives us some stability and predictability over time, which is 
the thing we need most.
    I look forward to your specific questions.
    [The prepared statement of General Welsh can be found in 
the Appendix on page 84.]
    The Chairman. Thank you. General.

STATEMENT OF GEN JAMES F. AMOS, USMC, COMMANDANT OF THE MARINE 
                    CORPS, U.S. MARINE CORPS

    General Amos. Chairman McKeon, Ranking Member Smith, 
committee members, thank you again for the opportunity to speak 
to you regarding sequestration and the Strategic Choices 
Management Review. Sequestration by its scale and inflexibility 
will significantly stress our force, degrade readiness and 
create a significant risk to our national security, all at a 
time of strategic rebalancing, all done on a world stage that 
is chaotic and volatile.
    I urge this committee and the Members of Congress to 
consider the full range of risks across the joint force, not 
just for my service but for all of us, and ask for your 
continued assistance in mitigating the effects of 
sequestration.
    Our Nation expects a force capable of responding to a 
crisis anywhere around the globe at a moment's notice. 
Readiness is the critical measure of our ability to be able to 
do that. This is our Nation's strategic hedge against 
uncertainty.
    In times of crisis, forward-deployed naval forces provide 
decisionmakers with immediate options that can control 
escalation, buy time, create decision space for our national 
leaders and enable joint follow-on forces. The Marine Corps' 
high readiness levels mitigate the risks inherent in an 
uncertain world by responding to a wide range of capabilities 
across real-world scenarios.
    Your Marines remain a constant, effective hedge against the 
unexpected and provide the American people a national insurance 
policy.
    Our world is a dangerous place, and America must always be 
ready to meet emerging crises that threaten our national 
security interests.
    As a member of the Joint Chiefs, I am particularly 
concerned about the long-lasting and devastating impacts of 
sequestration. The very nature of sequestration erodes both 
Marine Corps readiness and that of the joint force.
    Scheduled tiered readiness is not an option for the United 
States Marine Corps. We must be prepared when a crisis erupts. 
Over the last year, we have maintained our equipment readiness 
to the maximum extent possible. Maintenance costs are 
increasing, and our Marines are working longer hours to keep 
aging equipment running. We have maintained the near-term 
readiness of our forward-deployed forces and our next-to-deploy 
forces at the expense of infrastructure and sustainment and 
modernization programs.
    This can't continue over the long haul. We are in a Catch-
22. If we are to succeed on future battlefields, we must 
modernize, and we must care for our infrastructure and our 
training facilities.
    Sequestration has already started to degrade our 
infrastructure. We have been forced to reprioritize 
infrastructure maintenance and recapitalization efforts on our 
facilities to be able to sustain a ready force. Soon, there 
will be little left within these accounts to offset our 
readiness requirements.
    Over my 43-year career as a United States Marine, I have 
seen the effects of strategic miscalculations resulting from 
declining resources and budget-driven strategies that resulted 
in wholesale force cuts. We only need to look back to the 
1990s, when our Nation executed the first drawdown of the All-
Volunteer Force.
    Following the Gulf War, we saw firsthand how deep cuts in 
our military produced unintended consequences and increased 
risk to our Nation. During the mid to late 1990s, we were 
challenged by a host of limited conflicts in Liberia, Somalia, 
Kosovo, along with the bombing of our East African embassies. 
By the end of the decade, the U.S. military had reduced its 
Active Duty force by 25 percent. Operations and maintenance 
funds were slashed. Peacetime deployment tempo increased, 
wearing down the force and wearing down our families. For this 
very reason, Congress began to require the services to track 
and to report our deployment tempo. The force was overly 
stressed, and we considered this to be peacetime.
    We see these same problems today. In order to meet the 
requirements of the Defense Strategic Guidance, I need a Marine 
Corps of 186,800 Active Duty Marines. A force of 186.8 allows 
us to meet our steady-state requirements as well as be able to 
go to war. It preserves a 1:3 dwell for our Marines. Our share 
of the 2011 Budget Control Act's $487 billion reduction cut our 
end strength to 182,000. Based on sequestration, I simply 
cannot afford a force that size. Sequestration will force us to 
plow through scarce resources, funding our old equipment and 
weapons systems in an attempt to keep them alive and 
functional. We will be forced to reduce or cancel modernization 
programs and infrastructure investments in order to maintain 
readiness for those deployed and next-to-deploy units. Money 
that should be available for procuring new equipment will be 
rerouted into maintenance and spare accounts for our legacy 
equipment. This includes our 42-year-old Nixon-era amphibious 
assault vehicle.
    In February, we initiated a parallel study to the 
Department of Defense's Strategic Choices Management Review. 
Our internal review redesigned the Marine Corps to a force that 
I could simply afford under sequestration. This was not a 
strategy-driven effort. This was a budget-driven effort. Our 
exhaustive research backed by independent analysis determined 
that a force of 174,000 Marines is the smallest force that can 
meet mission requirements. This is a force with levels of risk 
that are minimally acceptable. For instance, assuming that 
global requirements for Marine forces remain the same over the 
foreseeable future, a force of 174,000 will drive the Marine 
Corps to a 1:2 dwell for virtually all Marine units; gone 6 
months, home 12 months, gone 6 months. Furthermore, the 174K 
force accepts risk when our Nation commits itself to its next 
major theater war.
    In plain terms, we will have 11 fewer combat arms 
battalions, 14 fewer aircraft squadrons to swiftly defeat our 
adversary. This is a single major contingency operation force 
that would deploy and fight until the war's end. In other 
words, we would come home when the war was over.
    Marines who joined the corps during that period would 
likely go from drill field to battlefield. Across the joint 
force, America will begin to see shortfalls in the military's 
ability to accomplish its national strategy.
    Today we are seeing only the tip of the iceberg. Tomorrow's 
Marines will face violent extremism, battles for influence and 
natural disasters. Developing states and non-state actors will 
require new technology and advanced conventional weapons that 
will challenge our ability to project power and gain access.
    In order to be effective in this new environment, we must 
maintain our forward influence, our strategic mobility, power 
projection and rapid response capabilities that Marines are 
known for today.
    We will balance an increasing focus on the Asia-Pacific 
region with a sustainable emphasis in the Middle East and 
Africa littorals. I will continue to work with the members of 
this committee to fix the problems we are faced with today. I 
thank you for this opportunity to appear before you, and I am 
prepared to take your questions.
    [The prepared statement of General Amos can be found in the 
Appendix on page 97.]
    The Chairman. Thank you very much again for your service 
and for your testimonies.
    I'm going to yield my time this morning to the gentlelady 
from South Dakota, Kristi Noem.
    Mrs. Noem. Thank you, Mr. Chairman, for yielding, and I 
want to thank all of our service chiefs for being here today 
and for your service to this great country.
    Admiral, my thoughts and prayers are with you and the Navy 
during this difficult time. We appreciate your service.
    We are again confronting the difficult choices and 
tradeoffs that we have in the face of sequestration. Like you, 
I have heard from service members about their concerns with 
sequestration. I have found that their personal impact is 
secondary to their concerns about continuing to defend this 
great country.
    As you mentioned, General Welsh, we have had our B-1 bomber 
squadrons grounded, which is eroding our readiness and costing 
more in the long run. Our National Guard military technicians 
were furloughed. While many of the technicians that I talked 
with were extremely concerned about the inconvenience for them 
and how hard it was on their personal budgets, they also 
mentioned that if we continue to break faith with them in the 
coming year and beyond, they have told me that they will find 
the need to start looking for another line of work. The thought 
of losing such highly trained individuals, service men and 
women, is very troubling to me and I am sure that it is with 
you as well.
    Clearly, the options that are presented in the SCMR are not 
pleasant ones. I hope we can rally around what is our most 
important duty, and that is to provide for the common defense 
and to protect our national security.
    General Welsh, my first question will go to you. As you 
know, Ellsworth Air Force Base is located in South Dakota. It 
is home to part of the B-1 bomber fleet. The SCMR contemplated 
all of the B-1s being retired. Given the B-1's strong track 
record and our operations in Afghanistan and elsewhere, I 
believe it would be very shortsighted.
    Are there foreseeable missions that would go unsupported if 
this aircraft is, in fact, retired? And how would you mitigate 
that loss of the aircraft group in this overall strategy?
    General Welsh. Yes, ma'am. We have a problem with 
mitigating losses in the bomber fleet, as you know, especially 
over time. Were we to make a major reduction to the bomber 
fleet, we would have extreme difficulty meeting some of the 
guidance in the Defense Strategic Guidance, and as a result, I 
don't think there is major discussions inside the Air Force on 
that being a fleet that we would eliminate.
    Mrs. Noem. In your testimony, you talked about, in fact you 
quoted that we cannot continue to bandage, in your written 
testimony, old airplanes as potential adversaries roll new ones 
off the assembly line. Then you go on to mention that the B-52 
is as old as you are, which I won't speculate on that today, 
but why then would you consider retiring the B-1 bombers that 
are about half the age of the B-52s?
    General Welsh. Ma'am, right now, we cannot retire a major 
portion of the bomber fleet at all and meet the Defense 
Strategic Guidance. I think when we look at what we can do over 
time, we have to look at every platform, and we are looking at 
every platform, every upgraded program to those platforms and 
the impact of divesting an entire fleet. And what we will need 
to do is balance the requirement to conduct an operation 
globally, which is something the entire bomber fleet is engaged 
in, the requirement to conduct that operation over time if, God 
forbid, we were in a major conflict requiring that fleet to be 
operated that way versus the short-term risk to readiness and 
modernization the sequestration has presented us with. Those 
are the only two places we can go to to have an impact on this 
right now and to take money to pay for the bill over the first 
couple of years. So that is why we are having the discussion, 
not because we think strategically it is a good idea.
    Mrs. Noem. I was glad to see within your testimony that you 
talked about the long-range bombers being a priority and 
something that you have identified as well, although I did have 
concerns with some of the ideas that were laid out within the 
SCMR as it was portrayed to us. So I will open up the 
questioning to anyone else or who whoever would wish to answer 
this question.
    We understand that prior year funds can be used to reduce 
the impact of sequestration on current year accounts. However, 
many available prior year funds have already been utilized to 
buy down fiscal year 2013 sequestration. To what magnitude does 
the lack of available prior year funds impact fiscal year 2014? 
I will open it up to General Amos, first, if he would like to 
speculate on that.
    General Amos. Congresswoman, we have been successful in 
doing that in the past. And as you implied in your statement, 
as we move into fully sequester budget, that flexibility is not 
there. As we move into procurement, and even in some cases, 
military construction accounts, there are opportunities to be 
able to realign moneys and be able to reach and move moneys 
across what might be a boundary, a rule boundary.
    All I would like to see in the future, especially as we go 
into a sequester budget, would be the ability to be able to 
take a look at how we are doing in execution. And as things, it 
becomes apparent that you can't do things, I would like the 
opportunity and the flexibility to be able to move that.
    Mrs. Noem. And that flexibility does erode as we get deeper 
and deeper into sequestration, is that correct?
    General Amos. Yes. Yes.
    Mrs. Noem. Thank you.
    With that, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman, just one question, two 
parts. I know we are supposed to be talking about 
sequestration, and I know we will continue to do that. But 
could you give us just a little bit of a flavor of the impact 
of having to live with a CR, assuming we can get one before the 
end of the year, and then also the impact of the threat of what 
if we don't raise the debt ceiling? How do those two things 
impact all of what we are talking about here today? And I will 
throw that open, whoever wants to dive in.
    Admiral Greenert. Well, as we talked in this room before, 
Mr. Smith, the issue with the continuing resolution is you 
can't get any new starts going. And so, every year, we would 
like to do new projects, from repair barracks to runways to get 
shipbuilding started to even overhaul an aircraft carrier. That 
is a new start. Under a continuing resolution, you can't do any 
of that.
    You are also limited to the prior year funding. And when 
you are limited to a prior year funding level, well, when it 
comes to maintenance and operations, they are not consistent. 
And so, to the extent they are greater, we are out of luck. We 
just don't have that money because we are spending that, the 
previous year's level.
    When it comes to personnel, in order to shape our force and 
do the things we need to do for our people, those are new 
starts, too. So that can be anywhere from bonuses to changing 
re-enlistment factors, if you will; somebody gets more than 
less. And it is about shaping the force. And you lose a lot of 
flexibility and the ability to operate the force.
    Mr. Smith. Thank you.
    General.
    General Odierno. Congressman, as you know, it depends on 
how long the CR is. Then all of a sudden you have a CR plus 
sequestration, which will pile on to what occurred in 2013. And 
we have already pushed $400 million worth of problems from 2013 
to 2014 in our depots; $100 million of problems in our 
maintenance accounts to 2014. We pushed over $100 million of 
training readiness to 2014. And now you get a continuing 
resolution, and now you get continued sequestration, and so it 
starts to build and build and build. And it gets to a point, as 
I mentioned, by the end of fiscal year 2014, if that occurs, 85 
percent of our Army brigade combat teams are now unready 
because of this continued pressure on our budget.
    And the reason that is the case for the Army is I can't 
take the end strength down fast enough. And the way the budget 
has been written, any end strength above 490 is in OCO 
[Overseas Contingency Operations], and so I gain nothing in our 
base budget, even though we continue to reduce the size of our 
Army over the next several years.
    So, for us, it is a huge problem, and that is one of the 
real issues that we face. And we are planning for that because, 
frankly, that is the worst-case scenario, and so that is what 
we are planning for this year. So I am looking for, right now, 
a significant degradation.
    My biggest fear--I have been asked what keeps me up at 
night--is I have to, I am asked to deploy soldiers on some 
unknown contingency, and they are not ready. And so we are 
going to have to severely tier our readiness to say I am going 
to have--we are going to now--maybe I can get seven brigades 
trained, so if we have to go, at least I have seven brigades 
that are highly trained, ready to go. And if we have to go more 
than that, we now have a significant problem. So that is the 
impact on us.
    General Welsh. If I could add one of the things that 
affects all of us is the longer the CR goes, the greater the 
impact. And so the length of that period makes a major 
difference.
    The prior year unobligated funds question that was asked a 
moment ago is significant. We paid a full 25 percent of our 
fiscal year 2013 sequestration bill with prior year unobligated 
funds, which are now not available.
    The other thing that the CR does to us is we have all 
deferred infrastructure maintenance sustainment, and we are 
down to only doing critical infrastructure sustainment. The CR 
keeps us from doing that as well, which adds in to greater 
costs in the future and adds to the buy wave that we 
experienced last year.
    General Amos. Congressman, one last, I am in sync with all 
my colleagues here. Just a point of reference, from just last 
year's CR effort, as we finally got that fixed in the H.R. 933, 
because there are no new starts, last year I had $850 million 
worth of military construction that was in jeopardy because I 
couldn't execute it. H.R. 933 helped me.
    This year, because of the way the budget is written under 
sequestration, I dropped my military construction by 40 
percent. So if we get CR and I can't execute those military 
construction contracts, I have gone from 60 percent of the 
requirement to, perhaps, nothing. And in many cases, I can't 
roll that in--in fact, I can't. We will just have to restart it 
again the next year, and it will pile on those requirements.
    Mr. Smith. Thank you, gentlemen.
    I yield back.
    The Chairman. Thank you.
    Mr. Jones.
    Mr. Jones. Thank you, Mr. Chairman.
    General Amos, the Marine Corps has recently issued 
correspondence to the families of Marines who died in the MV-22 
crash in Marana, Arizona, in April of 2000. The correspondence 
seems to acknowledge for the first time that problems with the 
MV-22 program may have contributed to this tragic mishap.
    Can you please comment on that statement by me?
    General Amos. Congressman Jones, you are absolutely 
correct. The letter was sent to the families of both those 
great pioneers that lost their lives in that airplane in 
Marana. It acknowledged a series, a complex series of 
programmatic program execution, monetary, unsubstantial 
monetary support in--there is just a series of things that were 
all happening during the V-22 program during the summer of 
2000, the springtime and summer of 2000. That is what the 
letter acknowledged.
    There was also challenges aerodynamically with the airplane 
because the test program had been cut back in some areas to the 
point where it was on bare minimum. Those pilots were the 
pilots who were flying that airplane using the data that they 
had at the time. So it is an acknowledgment of that.
    Congressman, as I have said to you in private, I am going 
back through all of that right now. I mean, it was a 
complicated period of time; and interesting, because we are 
talking about budgets and we are talking sequestration and 
reducing costs, that program was about as anemic as any program 
that I have ever seen for a major acquisition program. And that 
is part of how we ended up getting where we were, not only 
during the March timeframe but as we went through the summer 
and the fall.
    So, Congressman, I am going back in there again and not 
only the aerodynamics but the programmatics and the reality of 
what was taking place with that period of time, and I intend to 
come back to you in this House with my final resolution on 
that.
    Mr. Jones. Mr. Chairman, I would like to thank the 
Commandant.
    One of the wives lives in my district, Connie Gruber, and 
her husband was the co-pilot. The co-pilot's wife, Connie 
Gruber lives in my district. The pilot's wife lives in Steny 
Hoyer's district. And I want to thank the Commandant publicly 
for making this statement and taking this position because I 
have always believed that the dead cannot speak for themselves. 
And for the Commandant to take this position, I want to thank 
you on behalf of the two wives, the 17 Marine families who were 
sitting in the back of that plane who were burned to death.
    And sir, this shows that you are a man of integrity, who 
seeks the honesty into what happened, and I want to say that I 
have great respect for you for making the statement that you 
just made to the committee.
    Thank you so much, sir.
    General Amos. Thank you, Congressman.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    I certainly want to thank you all for being here, and I 
especially want to thank you for continuing to sound the alarm. 
Because I think that we hear what you are saying, we know that 
readiness is at risk, and yet I do sincerely worry that we are 
not acting on that, on what we are hearing, and this is really 
getting serious.
    I wonder if you could talk about some of the decisionmaking 
that goes on when you are dealing with capacity and capability 
at the same time.
    And I know that, Admiral Greenert, you particularly 
mentioned the need for cyber operators, and yet we also have 
fleet maintenance. We also have a whole number of other areas 
that you have to focus on. So I think just trying to, the short 
term and the long term, what else do we need to know to be able 
to act on what you are telling us?
    Admiral Greenert. Well, you have to prioritize, 
Congresswoman. I mean, that is obvious. So, as I said, we have, 
my job is to provide strategic nuclear deterrent, safe and 
credible, number one. Right behind that is cyber, and we have 
talked in this room quite a bit about the importance.
    We are staying the course on our cyber warrior plan that we 
briefed in here. Through any budget scenario that I see out 
there, we have got to maintain that. That is critical.
    Number three, as I have mentioned before, I have got to be 
where it matters when it matters, and we do everything we can 
using whatever innovative means we can to be forward, but we 
have got to be ready. So whatever we have forward has to be 
ready.
    Then, you say, what about the rest of it? The rest of it 
becomes that surge issue I talked about. What do we have to 
surge? And it is getting less and less. And I am very concerned 
about it.
    Today, one carrier strike group, one amphibious ready group 
is ready to surge with their organized, trained, and equipped. 
Normally, ma'am, we have three. So you can see that. In the 
future, I am not sure. I have to look at those scenarios, and 
that is an important attribute.
    The undersea domain is critically important. We have to own 
that. We do today. We have to do that in the future. So it is 
about prioritizing and then deciding within, you know, you have 
to have a certain capacity to have a capability, but then once 
you have the capability, how much of it can you, can we afford 
to have, and that is the conundrum that we are dealing with 
today.
    Mrs. Davis. General Odierno.
    General Odierno. So part of it is the process of the budget 
that you have to put the puzzle together properly. And so, for 
the Army, as we face just the reductions from the $487 billion, 
which, by the way, we are still implementing, as we implement 
that, we have to, in order to get our end strength down to the 
levels of 490 from 570, which is just the first increment, 
based on potential decisions that we have in the budget, we 
have to take risk and readiness in modernization because, until 
we get at the 490, we don't gain any savings from that in the 
budget process. So, as we get continued cuts, all of our cuts 
for the next 3 years almost all come out of readiness and 
modernization, until I can reduce end strength further.
    And then what happens is we are going to get our end 
strength reduced to a level that I believe makes our Army too 
small, in order to get it in line with the readiness and 
modernization efforts that we have.
    The other thing is, there are fixed costs to operating a 
service that we tend to overlook. Just the fact of how we 
recruit, how we initially train, how we educate. There is a 
huge fixed cost within our service that we have to fund first 
because if we don't do that, we fundamentally lose our ability 
to develop an Army.
    So then you have got to take what is left. And all the cuts 
have to come out of that area. And that is the problems we are 
facing as we move forward.
    Mrs. Davis. And General Amos, I know that 174,000 is a 
figure that sounds like, not a figure that people feel good 
about, but I am wondering, how much lower do you think that can 
go?
    General Amos. Congresswoman, at the end of the day, we will 
go as low as Congress is willing to, I guess, pay for.
    The 174 force is the floor, as far as I am concerned, in 
several ways. First of all, it does meet a major theater war. 
History has proven that over time, we will probably commit our 
Nation again, even though it is hard to imagine right now, but 
we will probably do that again. And when that happens, that 
force is the minimum size force to go off to war.
    And as I said in my opening statement, they will go to war, 
and they will come home when it is over.
    But even greater than that, the day-to-day steady-state 
operations, the requirements around the world require a force 
that is no lower than 174,000.
    That is the stuff that is happening in the--off the African 
littorals right now. That is what is happening aboard our ships 
with the Navy. That is what is happening in Afghanistan. That 
is what was happening in the Far East and the Pacific down in 
Australia. That is the steady-state requirements.
    Inside that 174 force, which I think is an alarm bell, is 
that is designed to be a 1:2 dwell force. I referred to that in 
my opening statement. That is a critical point because, as the 
assistant commandant, I testified we want to build a force 
post-Afghanistan that is at least 1:3 so that you give the 
force the opportunity to come back and reset; you give families 
the opportunity to come back and reset with their loved ones. 
This force is 1:2. That is unprecedented, unless in a time of 
peace.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Gentlemen, thank you for being here. And not 
just to flatter you, but any one of the four of you have more 
experience defending this country than any other member sitting 
on this committee. And if we took the four of you collectively, 
you have more knowledge right now of what we need to defend the 
country and the resources that we have than this entire 
committee together.
    Most of us on the committee, some of us will disagree on 
how we got to sequestration. We disagree on a way forward, but 
we are at least unified in the fact that we need to do away 
with sequestration.
    Unfortunately, that is not true for all the leadership in 
Congress. It is not true for every Member outside of this 
committee. And part of that reason is because our message has 
not always been spoken with clarity. When we had these cuts 
that we can argue whether it is $487 or $778 billion, which our 
staff believes it to be, we weren't real clear from this 
committee; we weren't real clear from the Pentagon.
    But we are where we are today, and that is why I want to 
ask you this question so we can speak with clarity to those who 
may think sequestration is good to go forward. The Defense 
Strategic Guidance, General, that you talked about in 2012, 
before that, we had a win-win situation as our defense 
strategy. And because of cuts that we made, we basically felt 
we needed to go to the new Defense Strategic Guidance, which 
was really somewhat of a minimalist approach where we said we 
would win one encounter and hold another one.
    My question to each of the four of you in as close to a yes 
or no answer, not to box you in, but just so we can be clear in 
communicating this, if sequestration goes forward, can you meet 
the requirements necessary that you have to meet to comply with 
that minimal Defense Strategic Guidance of 2012?
    And General, if you would give us your assessment first.
    General Odierno. Congressman, I mentioned it in my opening 
statement--I will just repeat it--is that I believe at full 
sequestration, we cannot meet the Defense Strategic Guidance. 
In fact, it is my opinion that we would struggle to even meet 
one major contingency operation. It depends on assumptions, and 
I believe some of the assumptions that were made are not good 
assumptions. They are very unrealistic and very positive 
assumptions. And for that, they would all have to come true for 
us to even come close to being able to meet that.
    Mr. Forbes. Thank you, General.
    Admiral, I know you have looked at this. You have agonized 
over it. It has kept you up at night. Can the Navy meet the 
requirements necessary if sequestration continues?
    Admiral Greenert. No, sir. We cannot. And, in fact, I am 
concerned in sequestration in 2014 about that. I am very 
concerned, particularly about our strategic nuclear, our 
SSBN(X) [ballistic missile submarine] replacement. If that 
program is sequestered, it falls behind. It cannot fall behind. 
And so I am concerned about 2014 as well.
    Mr. Forbes. And General, same thing with the Air Force.
    Can you meet the requirements if we continue sequestration 
the way it is going forward?
    General Welsh. No, Congressman, we cannot. I believe any 
executable strategy will always be resource-constrained or at 
least informed. If the resources change significantly, you have 
to relook at strategy.
    Mr. Forbes. And General Amos, what about the Marines? Can 
we meet the requirements necessary, the minimal requirements 
for the Defense Strategic Guidance of 2012 if sequestration 
continues forward?
    General Amos. Congressman, we can't--I came from a one MCO 
[major contingency operation] perspective, but if it is a one 
MCO and do something else somewhere else, I cannot. I simply 
don't have the depth on the bench. We are going to continue 
with the rebalancing in the Pacific. That comes at the price of 
readiness back home. So, over time, our readiness back home 
will become unacceptable. So the answer in both cases is no.
    Mr. Forbes. Yeah.
    Mr. Chairman, I would just state that if nothing else, that 
message ought to be communicated and we ought to have a 
commitment, as I know we all do in this committee, to make sure 
that we are doing whatever we can in Congress to get this 
foolish thing stopped so we can meet those requirements. And 
with that, I yield back.
    The Chairman. You know, I think some of us last week met 
with Mr. Luntz, who had just gone into the field with a poll 
asking the American people if they felt like they would be more 
safe or less safe in the next 10 years, and they said 83 
percent felt like they would be less safe 10 years from now 
than they are now, and that was before they heard this 
testimony. You can see, if the American people are tuned in, if 
they are listening to this, that probably will go up to 95 to 
100 percent, and with great reason.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    I admire you gentlemen for your service to the Nation, and 
I admire your work, particularly since you are having to 
operate in an irrational budget environment. And almost none of 
your predecessors have ever had to do that. There were 
drawdowns, there were cutbacks, but seldom has it been this 
completely arbitrary as sequestration is forcing you to 
operate.
    I really think that you gentlemen should be questioning us, 
because we are the parties at fault here. Congress is failing 
to adequately fund our military in a responsible and reliable 
fashion, and that is a significant charge. Past generations 
have done a better job of funding our military needs. We are 
failing, and this Congress and both parties and both Houses of 
Congress need to get their acts together so we do a better job 
and do a better job quickly.
    The challenge is great when we have a House of 
Representatives that refuses to even open discussions with the 
Senate on a budget for America. In our degraded media 
environment, many folks back home are unaware of this. They are 
mad at Congress in general and they don't understand that one 
House of Congress is unwilling to talk to the other House of 
Congress about having a budget for America. Somehow we have 
gotten into our heads, especially the younger Members, that it 
is okay for the House to have a budget and for the Senate a 
separate budget and never the two shall meet. Well, we are 
supposed to have a budget for America.
    This committee in markup, it was my amendment, voted 
overwhelmingly by voice to give the Pentagon flexibility so 
that it could address its most pressing defense needs, but when 
a recorded vote was asked for people put on their partisan 
jerseys and the same vote failed. This is the largest committee 
in the House of Representatives. Presumably we have some 
influence, if only by Members, on our colleagues, and yet we 
are somehow unable to behave responsibly ourselves, much less 
encourage our colleagues in the House to behave responsibly.
    We have the end of the fiscal year coming up. Many of the 
pundits are predicting that there will be at least a government 
shutdown, perhaps a default on our national credit, all because 
of political bickering. And you gentlemen, and most of all the 
men and women in uniform, should not have to suffer as a result 
of this fighting. So why aren't the compromises more 
forthcoming on this side of the aisle? You gentlemen have to 
resolve your differences in the tank. You gentlemen have to 
make very important life-and-death decisions almost every day. 
But we on this side of the dais are unwilling to even come up 
with a budget for America. We saw near default on American 
credit in 2011, we lost our AAA credit rating, and that looks 
to be happening again.
    The best case circumstance for you is you get a short-term 
CR, so as you gentlemen have testified, you are not able to 
start any new projects, you are having to operate in an 
incredibly irrational and constrained budget environment for, 
what, 2, 3 months at a time, in addition to having to probably 
furlough again all your civilian military employees.
    So the message of this hearing really should be to take the 
valuable information you have given us, for us on this side to 
resolve to do better, to come up with bipartisan and bicameral 
compromises that get budgets for America, budgets for our 
military, budgets for the national defense, because as I said 
in my committee markup amendment, if sequestration were foisted 
on us by a foreign enemy, we would declare it an act of war, 
and yet we have done it to ourselves, because the super 
committee was unable to come up with a bipartisan agreement, 
because we have been unable to unravel that knot since, even 
though we have had some of our generals testify to us that 
their Departments are in chaos. This should not be happening in 
America.
    So I am hopeful that this committee with its large 
membership will take this message to heart ourselves and to 
other Members so that we can do better, can get a budget for 
America before the end of the fiscal year, can get the proper 
appropriations bills passed, can have a sensible HASC [House 
Armed Services Committee] markup that actually provides you 
gentlemen with the resources that you need to do the job you 
need to defend our country.
    So I thank the chairman for his indulgence. I see my time 
has expired. I hope for better things for our country.
    The Chairman. I have the greatest respect for the 
gentleman, but there are just a couple of things I would like 
to clarify for the record. One is there is another body, and 
while we haven't worked together to resolve our budget, they 
didn't pass one for about 3 or 4 years. And this time the one 
they passed, they have $91 billion more in their budget than we 
have in ours. And we followed the Budget Control Act, which 
gave us a number that we had to work with. So I agree that we 
haven't done the type of job that we should, and we need to dig 
in and really work hard on this problem. And it is not any of 
your fault. It is us, and we need to work together on it.
    The other thing for the record was the voice vote on the 
gentleman's amendment, he is correct, but it was not, when we 
did a roll call vote, it was not a partisan vote, it was 
something we all worked together on and did change for several 
reasons.
    So next we have Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Gentlemen, I appreciate you being here. I have empathy for 
the job you have, but I am grateful that you are having that 
job at this time. I hope you find it a challenging and 
enjoyable situation, or at least challenging situation, 
especially in an era, as the chairman and the other member 
recently said, when the military has gone through three cuts in 
its budget. You have had to manage through all of those. Had we 
not had the two prior cuts, then the third one, which we call 
sequestration, may not have caused the cup to overflow, causing 
some of the problems that we are facing. So I recognize you 
have to realize and manage all three of those cuts, and you 
have done it well.
    I happen to be very proud of the House. At least in our 
budget and our defense authorization bill from this committee, 
as well as the defense appropriation bill, recognized that 
situation and staying within the sequestration number 
reprioritized the military up to where it needs to be. And I 
would hope that the Senate would actually pass that 
appropriation bill so that we could move forward with it.
    I have, General Welsh, three rather parochial questions I 
would like to add on you, and then one for Admiral Greenert. 
Let me see if I can actually get through those in a relatively 
quick fashion.
    General Welsh, first of all, I had the opportunity of 
hearing from Generals Wolfenbarger, Moore, and Litchfield this 
morning. You have a good team under you. I am very proud of 
what they are doing. And I asked some of these questions of 
them as well, but, as you know, in the last sequestration 
issue, there was an issue with the FAA [Federal Aviation 
Administration] and contract towers that were critical to some 
of the bases within the Air Force. There was not a good 
communication between them until we told the FAA they could do 
what they always could have been done anyway had they not been 
told to do it.
    Are you either having a new updated list or are going to 
engage earlier with the FAA on dealing with those towers that 
have an impact on the military bases we have in the Air Force?
    General Welsh. Yes, Congressman, we are. After our last 
discussion on this topic, actually we have established a 
process with the FAA where as soon as they come up with a list 
of contract towers it comes to the Department. The Air Force 
takes the lead on that, just because we are connected to them. 
We share it with all the other services who do aviation work.
    Mr. Bishop. Thank you.
    General Welsh. And we will continue that cycle.
    Mr. Bishop. Appreciate that. Let me also talk about the 
record of decision for OPS 1 location for the F-35, which has 
been postponed again. My concern is obviously that every delay 
you have in signing that record of decision causes problems in 
financing the capital improvements that need to go along with 
it. I understood that now the idea is to wait until there is a 
new Secretary before you are actually signing that. Is there 
some way we could actually speed up that process? Are you 
looking at that still as the timetable, that when the next 
Secretary comes in it will be signed?
    General Welsh. Congressman, we are not waiting on the next 
Secretary. The timetable to get the data put together to 
complete the EIS [Environmental Impact Statement] report and 
findings with the updated census data just is after the new 
Secretary hopefully will be confirmed, if that goes well. If 
not, we will not delay the decision waiting on the new 
Secretary.
    Mr. Bishop. Pending a Secretary.
    General Welsh. I have not heard that intent expressed, and 
it certainly wasn't a discussion between the Acting Secretary 
and myself.
    Mr. Bishop. That is good news, and I am looking anxiously 
for that actually to be decided so we can move forward in that. 
It is a wonderful thing that will help the Air Force.
    In the appropriations act, we went through great statements 
to restate what I think is still Federal law in Title 10, 
Section 2742 that deals with the working-capital fund. If 
indeed we have a problem going forward in the next and we do 
not actually have the Senate passing our appropriation bill, 
are you looking towards once again using furloughs, especially 
in that working-capital fund, in which I still think is being 
prohibited by the section I just mentioned?
    General Welsh. Sir, we are not planning to do furloughs at 
all in fiscal year 2014. If the CR is 6 months or less, if 
there is one, then I think it is completely avoidable.
    Mr. Bishop. That is a better answer than I would have hoped 
for.
    Let me go to Admiral Greenert. Representative Forbes, I 
thought, did great questions in presenting as to what the 
concept could be. Our policy has always been to be able to 
deter and defeat any adversary in any area. In your written 
testimony you stated we would not be able to conduct one large-
scale operation and also counter aggression by an opportunistic 
aggressor in a second theater. Are you stating before this 
committee that under sequestration you would not be able to 
deter and defeat aggression specifically in one theater if our 
forces were committed to a large-scale operation elsewhere?
    Admiral Greenert. Yes, sir, I am. And let me clarify, if I 
may. The Defense Strategic Guidance says just what you stated. 
The reduced surge that I described, the readiness of those 
carrier strike groups, amphibious strike groups, et cetera, I 
believe can react to one major contingency operation or can in 
each theater, the two major theaters, deny. So that is an 
``or'' statement--deny in two theaters or respond to one. That 
is what I have concluded based on what I know right now.
    Mr. Bishop. Are you using deny and defeat interchangeably?
    Admiral Greenert. No, I am not. Deny would be the alleged 
aggressor would look and say, I don't think this would work out 
very well, there seem to be good forces here. And I am not 
saying deter. That is a tough one. Deter, deny. I don't do very 
well trying to pull those together. But the point is you 
preclude in each theater, you know, small contingencies, or you 
come together and roll into one and do a major contingency 
operation.
    Mr. Bishop. Thank you. I appreciate your answers very much. 
And, General Welsh, I appreciate your leadership. I have an Air 
Force base in my district. We appreciate very much what you are 
doing up there for us. Thank you, sir.
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Again, I just want to at the outset express again my 
condolences and outrage actually in terms of what happened on 
Monday at Sea Systems Command. I have had a chance up close to 
deal with Admiral Hilarides and his predecessor, Admiral McCoy, 
and the great team that is over there.
    We talk a lot in this committee about protecting the 
industrial base. That is what they do every single day. And a 
lot of them don't wear uniforms. They are civilian employees 
who took a hit with sequester and furloughs already. And, 
again, I just have the highest regard and admiration for all of 
them, and it was just incredible to see, you know, the events 
unfold on Monday.
    So please convey, I am sure from the whole committee and 
myself, again, our thoughts and prayers are with that great 
group of individuals.
    Admiral Greenert. Yeah. I will do that, Congressman. And I 
know you are a good friend of NAVSEA [Naval Sea Systems 
Command]. You go there often. These are our shipmates, and I 
appreciate that and I will pass it along.
    Mr. Courtney. Thank you.
    And, again, I am pleased to hear that the IG's report is 
something that the Navy is going to incorporate. Frankly, and 
this is sort of just me speaking, coming from Connecticut, it 
has been 9 months since Sandy Hook. There are too many mentally 
ill people getting too easy access to weapons, and it is time 
for this Congress to pass a background check bill, which would 
help, frankly, all installations in terms of trying to make 
sure these incidents don't ever happen again. And hopefully 
people are going to respond in this Congress to something that 
is perfectly constitutional and obviously necessary.
    Admiral, in your testimony, again, I just want to say, as 
far as I am concerned, you have been very explicit and specific 
in terms of what the impact of CR and sequestration has been 
and will be. We had 85 shipyard workers on Monday who received 
layoff notices because of the cancellation of the Miami 
repairs. And, again, I think, you know, we spend a lot of time 
talking about shipbuilding and platforms, but the fact is that 
the repair and maintenance end of your Department is obviously 
another critical piece to the industrial base.
    Your testimony indicated that you are going to be 
cancelling 34 of 54 planned maintenance availabilities. Can you 
describe what that means in terms of, again, protecting 
critical skills, particularly in some of the private shipyards?
    Admiral Greenert. Well, if I were to quantify it, 
Congressman, it is about 8,000 jobs. That is our best estimate. 
And our big areas are the Hampton Roads area and the San Diego 
area. That is where the big shipyards are. But it is up and 
down the coast, to your point earlier. And so those 
individuals, those presidents of those companies, they can't 
plan.
    So as I mentioned, I really want to be able to do a 
reprogramming or give me an appropriation bill, and we can 
preclude many of those 34. Half would be my plan. If I get that 
billion dollars I was mentioning in my oral statement, we could 
preclude at least half. We would then take to repair the ships 
that are going to deploy next year or the year after, or the 
ones that absolutely have to do a life upgrade because it is 
necessary. In other words, we have a priority and a scheme. 
Then we can converse with the shipyard, we can make plans and 
we can recover.
    Subject to that, that is where I am, Congressman, and it is 
really about balance. You know, the CR stops, it puts me at 
last year, no new starts, sequestration takes everybody down, 
we go where the money is and we got to operate forward and meet 
the commitments of today, number one.
    Mr. Courtney. And the repair and maintenance work is also, 
I think, a mechanism that you have employed to, again, protect 
critical skills, again. So if there is, you know, the six or 
seven shipyards around the country, you can actually, again, 
protect welders, carpenters, machinists, et cetera, if there is 
maybe a downtick in one of the shipyards. And so losing that, I 
think, is really, again, going to hit muscle and bone, is that 
right, in terms of our base?
    Admiral Greenert. Yes, sir, that is correct. You are 
referring to what we call the ``One Shipyard'' concept, where 
we will move workers to another area of the country and they 
will assist. And there is good cooperation between our public 
shipyards. Some of the private shipyards are adopting it as 
well.
    Mr. Courtney. Right. And, you know, in terms of the 
operational force, you know, if CR minus sequester goes 
through, again, we have a 6-month delay on the Truman, a number 
of other deployments. Again, what do you see in 2014 and 2015 
for the operational force?
    Admiral Greenert. What I see is we would be able to 
maintain one carrier on deployment and one in surge. And then 
the George Washington is in the forward-deployed naval force, 
so she is in Japan. So at any given time you have one carrier 
in the western Pacific and one carrier in the Arabian Gulf and 
one carrier strike group that can respond. The others are 
waiting to get into maintenance, because I just don't have the 
capacity to move them into maintenance, or they are in 
maintenance.
    Now, key and critical part are the air wings. So when 
carriers come back, instead of keeping them at a proficiency 
level able to respond, we will let them gracefully decline and 
they will shut down for a period of about 3 months, and then we 
will take them what we call tactical hard deck. That is just a 
level of flying statistically determined to be safe. It is sort 
of like driving your car occasionally so that when the time 
comes you could get in and, you know, practice and maybe become 
a delivery person or whatever, and that is when these air wings 
would go into work up.
    So we would have on any given time three air wings, a 
tactical hard deck, two shutdown, and then three getting ready 
to, well, deploy or on deployment. This is a situation we 
haven't been in before and it is not our covenant with the 
combatant commanders.
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Gentlemen, thank you for the clarity that you are 
providing. I appreciated your very strong answer to Randy 
Forbes' question as to the effects of a second year of 
sequestration. The President's sequestration was intended to be 
a process by which the President would seek, with Congress, 
alternative offsets so that defense would not bear the brunt of 
these cuts. The President now, not bringing forth any other 
offsets, but calling on Congress to repeal it, has placed this 
stasis, this gridlock that we have.
    I opposed this from the beginning because I feared that we 
would be right here where we are, where the President is not 
coming to the table with any recommendations for us to be able 
to find those offsets. But with the clarity that you are 
providing, this is important, because it is going to help us 
frame the discussion of how important it is that this process 
be stopped.
    Dr. Miller was before Congress when he was discussing 
Syria, and he said that the administration is very well aware 
of the message that you provided today, but we need it out in 
the public, we need the message of clarity that you are 
sounding the alarm that one more year of sequestration would be 
absolutely devastating to our military.
    I want to go to Hagel's Strategic Choices and Management 
Review--this is known as the SCMR analysis--which appeared to 
be largely sequestration driven. And I would like to focus with 
General Odierno and General Welsh on the effects of the 
conclusions of the SCMR analysis.
    And so, General Odierno, you had said that they had some 
rosy assumptions. It is my understanding that a number of 
assumptions underpin the sequester-driven SCMR analysis, such 
as a 6-month duration for wars, no follow-up for stability and 
support operations, and a 90-day mobilization for Reserve 
Component formations. And as you are saying, you know, their 
readiness is actually declining, not remaining stable.
    General Welsh, I am certain you have some concerns as to 
how it affects Air Force squadrons. And if the two of you might 
speak of whether or not you also have similar concerns the SCMR 
analysis conclusions may affect our ability for readiness.
    General Odierno.
    General Odierno. Congressman, you had it just right. I have 
some concerns. I mentioned that I think some of them are 
somewhat rosy assumptions that I think can be somewhat 
dangerous. As you mentioned, conflicts 6 months in duration, no 
casualties in these conflicts, the fact that we would fully 
disengage from everything else we are doing. My problem with 
that is we just got done fighting two wars in Iraq and 
Afghanistan. We never disengaged from Korea, we didn't 
disengage from the Sinai, we didn't disengage from Kosovo, so 
why is there belief that we will disengage in the future when 
we haven't done it when we got done fighting two wars at the 
same time?
    There is no mission for weapons of mass destruction, that 
was not considered, which is a significant scenario in many of 
the scenarios that we have to address.
    So all of those are my concerns, that were really put in 
there so we could say we need a smaller Army, and that is 
concerning to me. And I have raised those issues very privately 
in all of our discussions that we have had during the SCMR 
process.
    Mr. Turner. Thank you. I think it is important for us to 
know that as part of the discussion, that those conclusions 
should not just be merely accepted.
    General Welsh.
    General Welsh. Congressman, I think the SCMR process made 
some things very clear to me. First is that what sequestration 
does, the topline reductions over time related to sequestration 
actually creates a capacity-versus-capability discussion that 
Admiral Greenert referred to previously. That is a longer-term 
issue that you can deal with in some kind of methodical and 
well-planned approach.
    What the mechanism of sequestration does--and the SCMR 
analysis made this very clear--is that it creates a ready force 
today versus modern force tomorrow dilemma. And that has 
defined the decisions that the Air Force is making right now, 
the ones we made last year, and the ones we will make for the 
next couple of years. The mechanism, the abrupt arbitrary 
nature, especially over the first couple of years, prevents you 
from making wise, long-range planning choices and drives you 
into this discussion of do you want to be modern in the future 
or do you want to be ready today. That is a terrible debate to 
be having.
    The other thing that came out of the SCMR analysis that was 
significant to me is that the cost of having a ready force, 
whatever the size of that force, the cost of making it ready is 
marginal compared to the cost of the force structure itself. I 
see the Air Force as an asymmetric advantage for our country. 
And by the way, the other services, I think, are the same. But 
we provide things quickly. We provide mobility rapidly. We 
provide ISR [intelligence, surveillance, and reconnaissance] 
support tonight, not in 3 or 4 weeks. And we provide global 
strike capability right now. That requires a readiness level 
that is not sometime in the future we will be ready to go. And 
to me that was a significant takeaway from SCMR. The cost of 
that is marginal compared to the cost of actually having the 
force structure.
    Mr. Turner. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And thank you all for being here.
    As a member of the Armed Services Committee, I have been 
here almost 6 years. I can recall when I was appointed, I 
didn't realize that it was and does have a proud tradition of 
being very bipartisan in its thinking, its commitment to 
producing a bill, bringing that bill to the floor, passing it 
out of the House, and then going to conference after the Senate 
similarly passes a bill. And it is in that conference where we 
resolve our differences, swallow some of them, proudly proclaim 
success in others, and then move on, because we understand how 
important it is to the defense of our country.
    And I think Chairman McKeon has honored that tradition, and 
I am suggesting maybe he should become head of the House Budget 
Committee, because we know the House has passed a budget, the 
Senate has passed a budget. There is a process, and it is 
called conference committee. It is a process that we honor and 
engage in every year.
    But back to sequester, I am dismayed that we had many, many 
hearings in which we talked about the damages of sequester, and 
now we are really talking about how to weather them. And I 
commend you all. I for one do think there is room for 
additional cuts. I am ranking member of Oversight and 
Investigations. We have had a hearing about the growth in the 
Office of the Secretary of Defense, that there is growth in the 
overhead. There are areas where we can look carefully and bring 
about savings in order to put more funds into things that 
really count. But sequestration obviously is not the way 
forward, because of the kind of across-the-board lack of 
discretion that you all confront.
    And General Odierno, when I hear you talk about readiness 
and I see the extraordinary bravery of those who serve in our 
behalf, the wounds they have to absorb, the life-changing 
nature of being in war, to think that we would ever compromise 
their readiness, I think, and put them in harm's way, knowing 
they are not adequately trained, and I know you would not do 
that, you would find a way to avoid it. But I think it is a way 
of bringing home to the American people what sequestration 
means. It is an All-Volunteer Force, it is not one in which we 
call upon all Americans to think about our young people coming 
to serve. And we would never want to send our young people to 
war without knowing that they were trained.
    I think the other way in which sequestration has become so 
hard is it is such a big term, the dollar amounts are so large, 
but you hear about it, we hear about it in our districts, we 
hear about it through the furloughing of people. And one of the 
places in which I have heard about it in my district, it is 
home to Natick Soldier Systems Center. It is a center that 
really invests in research and development, science and 
technology with a focus to, again, protect our soldiers and 
find new ways forward to protect them as they engage in war. I 
have seen some great work done there around lightening the load 
of body armor, developing body armor tailored to women, making 
uniforms fire retardant, the ways in which to conserve energy 
and recycle water out so that our soldiers don't have to put 
themselves in harm's way.
    But I have also learned that there has been a real bleeding 
of that workforce. It is my understanding that there they have 
sustained a workforce attrition of 52 personnel in this fiscal 
year, more than double the annual average, and including a 
number of Ph.D.s. So for an installation that develops this 
life-saving equipment, we know Ph.D.s are the heart and soul of 
research and development, and technology and science are key, 
key. We cannot develop those new cost-saving, life-protecting 
measures without all the tremendous investment.
    So we are not going to be repealing sequestration any time 
soon. How do you, General Odierno, protect that investment in 
this important work so that we know we are always on the 
cutting edge protecting our soldiers?
    General Odierno. First, Congresswoman, thank you very much 
for your question. And I would just say number one priority is 
our soldier systems, as you mentioned, getting them the best 
equipment possible for them to be able to conduct the operation 
we want them to do, whether it is lightening the load, all the 
things you mentioned, to include many, many others.
    The problem is, is that, you know, because we have had to 
go into a hiring freeze, because of furloughs, because of 
incidents like this, we are starting to lose some of our very 
important workforce, because they are uncertain about the 
future that they have working with us. So we have to make sure 
that we maintain a balanced force that allows us to continue in 
our highest priority, which is what you just talked about. So 
for us it is very concerning.
    We will--I will--take a look at programs that will allow us 
to keep the best, because we need our scientists, we need our 
engineers, we need our Ph.D.s to help us to come up with the 
new ideas and technologies for us to take care of our young men 
and women in uniform.
    Ms. Tsongas. I urge you to do that, despite all these 
financial challenges. Thank you.
    The Chairman. Thank you very much.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    And, General Odierno, I will focus my questions towards 
you.
    You all, all four of you did a great job in the outset in 
describing the impact of sequestration and how wrong-headed it 
is for the country, but particularly for your respective 
service branches. And I appreciate your candor on that, because 
the American people need to hear it. A lot of Members of 
Congress who aren't on this committee need to hear it. I think 
most of us on the committee already understood the impact, but 
we appreciate your candor.
    General Odierno, the disruption and uncertainty that 
sequestration is causing the civilian workforce and its impact 
on our readiness, I think, is the wrong way for us to budget 
for our military. But, sir, in year two, what current 
maintenance and overhaul programs are you looking to preserve?
    General Odierno. Well, first off, our problem is we want to 
sustain our reset program, which is resetting our equipment 
that is coming back from war, and right now we don't have the 
dollars to completely do that. And so I want to preserve all of 
that. I need that equipment in order to feed back to all of our 
units. And right now we are looking at, because of 
sequestration, having to lay off 2,400 people in our depots who 
do that very important work for us, and then another 1,400 
because of lack of workload; not because we don't have the 
workload, but because we don't have the dollars to support the 
workload over the next 2 to 3 years. So I need that, because 
what that means, it will delay the reset of our trucks, our 
soldier systems, our mortar systems, our individual weapons, 
and that causes us to reduce readiness down the road if this 
continues.
    Mr. Rogers. How do the possible reductions that you just 
described, those reductions in the force, impact the equipment 
mix and the workload of our depots and arsenals?
    General Odierno. So obviously as we reduce the force over 
time and reduce the number of brigade combat teams, that 
reduces the amount of equipment that we have to sustain our 
readiness. So I mentioned earlier that if we go to full 
sequestration, just in the Active Component, we are looking at 
a potentially 45 percent reduction in our brigade combat teams. 
That means less tanks, less Bradleys, less trucks, less M-16s, 
less mortars, less artillery systems. So it impacts all of our 
workload, because we are getting smaller. And, again, as I have 
stated, I think that is a bit too small, but it is going to 
have a significant impact on our civilian workforce as we move 
through this process.
    Mr. Rogers. Well, again, thank you. I think everybody in 
this room would agree that the sequestration maneuver was a 
tactical error made by the Congress in the Budget Control Act 
that blew up in our face, and we need to acknowledge it was a 
stupid mistake and correct it. And I pledge to you all, I 
intend to become a very aggressive Member in trying to bring 
this to a quick and immediate halt. Thank you.
    The Chairman. Thank you.
    Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    And, gentlemen, thank you very much for your service and 
the good work and tough situations that you face.
    General Welsh, I think you are aware I am going to ask a 
question about the KC-10. It has been quoted in the newspaper 
that a decision is in process to eliminate the entire fleet of 
the KC-10s, obviously a major impact, particularly on Travis 
Air Force Base, which houses half of that fleet, at a time when 
we are going to reposition ourselves to the Pacific. Can you 
explain in detail, and I guess as briefly as possible, why you 
are suggesting the elimination of the KC-10s at this time? I 
understand it is for the 2015 budget proposal.
    General Welsh. Yes, sir. First of all, anything that was in 
the paper is not a decision yet. We are considering divestiture 
of the KC-10 fleet, along with divestiture of lots of other 
things.
    One of the things that we got into as we looked at the 
ALTPOM, the sequestered POM, especially for 2015, is that $1 
trillion-plus out of the Department of Defense is going to 
leave a bruise. It is going to be significant and it is going 
to impact many, many things across the Air Force.
    We looked at the refueling fleet, we looked at our 
permissive ISR fleet, we looked at everything we do in the 
MILCON [military construction], facilities sustainment arena. 
We still haven't been able to get at facilities and 
infrastructure or personnel costs, which are significant to us, 
and so we are back to modernization or readiness. Those are our 
choices.
    And so as we looked at modernization, recapitalization, we 
looked at fleets of airplanes to see where we could save big 
amounts of money as opposed to a whole bunch of little amounts 
of money, which don't make savings over time. That is why the 
KC-10 fleet was examined, as part of that effort.
    Mr. Garamendi. Rather than the KC-135s, which are older?
    General Welsh. Sir, you can't eliminate the KC-135 fleet 
and still do the job that we do for the Department of Defense 
worldwide. It is too large. There is nothing good about 
divesting any aircraft fleet right now. What we are looking at 
is where can we take savings and not completely stop our 
ability to do our job.
    Mr. Garamendi. We have very little time here, and I will 
not go further at this moment, but I am definitely going to go 
into this in far more detail with you and your staff.
    General Welsh. Yes, sir.
    Mr. Garamendi. I will look forward to that.
    General Welsh. We expect to do that. I look forward to the 
conversation.
    Mr. Garamendi. Did you take a look at the triad? And this 
is, I guess, for Admiral, as well as for you, General. There is 
no mention of the triad here, where billions upon billions are 
spent in modernization of our nuclear force and the nuclear 
bombs, yet there is no mention of any of that in this 
testimony. Did you consider that? I will start with you, 
Admiral Greenert.
    Admiral Greenert. Sir, my number one statement is my top 
program is the SSBN(X) and the sea-based strategic nuclear 
program, and that is number one. I will fund that above all 
else in any ALTPOM, if you will, scenario. However, sir, it is 
not exempt from sequestration, that program, and so I am very 
concerned. It got sequestered in 2013. We were able to 
reprogram. It gets sequestered again in 2014. These delays, 
months and months and months, add up to years. This program is 
very tight.
    Mr. Garamendi. General Welsh, on triad.
    General Welsh. Congressman, as I mentioned before, we have 
looked at every modernization program we have in our portfolio. 
We are looking at everything.
    Mr. Garamendi. There is no specificity about the triad, 
about the land-based ICBMs [intercontinental ballistic 
missiles]?
    General Welsh. Well, first of all, the land-based ICBM, the 
cost of maintaining and operating that day to day is not 
significant. It is very, very low compared to the cost of other 
things. The modernization part of this over time is what we are 
discussing and where can you make savings, where can we work 
together with the Navy on pieces of the--whether it is weapons 
development, warhead development, infrastructure, to make sure 
that we are saving costs there, command and control, those 
areas. But we are looking at all of that, Congressman. It is 
all on the table.
    Mr. Garamendi. Okay. I would expect to have you develop 
that detailed information and present it to the committee, or 
at least to me. I would appreciate if you would do that.
    [The information referred to was not available at the time 
of printing.]
    Mr. Garamendi. Also, Admiral, very quickly, you are going 
to build a new base at what I call Camp Malibu, otherwise known 
as Hueneme, in Ventura County, for your BAM [Broad Area 
Maritime] System. Why are you not using the existing facilities 
at Beale?
    Admiral Greenert. Well, it is really about space. And if we 
had the space at Beale, I think we might consider it.
    Mr. Garamendi. You do have the space at Beale.
    Admiral Greenert. Well, I will tell you what I will do 
then, Congressman. I will regroup and we will come and show you 
why we decided to do what we decided to do, rather than use all 
the rest of your time. Is that okay? We will come and lay it 
out.
    Mr. Garamendi. Yes. I would appreciate that, sir.
    Admiral Greenert. You bet.
    [The information referred to was not available at the time 
of printing.]
    Mr. Garamendi. I will yield back. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, thank you so much again for joining us. Thanks 
again for your service to our Nation.
    Admiral Greenert, please again pass on my condolences and 
prayers to the entire Navy family, especially those at the Navy 
Yard and to the families of the victims of that terrible 
tragedy. I know it is a very tough time for the Navy family, 
and please let them know we are thinking about them and praying 
for them.
    Admiral Greenert. Thank you, Mr. Wittman. I will pass your 
feelings along.
    Mr. Wittman. Thank you.
    Admiral Greenert, I want to go back to the submitted 
statement that you had, and you spoke about both the CR 
combined with sequestration for 2014 and what the effects of 
that would be. And you say that most concerning, however, is we 
will have two-thirds less surge capacity in fiscal year 2014. 
And let me get you to elaborate on that a little bit, because I 
think sometimes people think of surge as extra or excess. Can 
you give us some real examples of where recently you have 
needed that surge capacity and how it is used? And then give us 
a focus, too, on what diminished surge capacity means. And that 
is, if our Nation is challenged, does it mean we deploy 
nonready forces or do we just refuse actual deployments, or in 
those situations say, listen, we can't respond? So if you could 
give us that perspective.
    Admiral Greenert. Yes, sir. I will go backward. I think 
that might work. Today we have the Nimitz in the Red Sea and we 
have the Truman in the North Arabian Sea of the Arabian Gulf. 
So the Nimitz is a surge carrier strike group. She was on her 
way home. As soon as she goes off station, whomever the strike 
group is, they become the surge. And had she gone back to her 
home port, she would be on call, if you will, until further 
notice. Well, she was called. So she is that one that I spoke 
of. If this situation continues, there will come a time when it 
is time for Nimitz to go home. We will call on one other 
carrier strike group. So that is how that works.
    Now, if there is more than one, well, we have a problem, 
because we don't have a carrier strike group ready. The carrier 
is nuclear powered. That is not the issue. It is the air wing. 
They are not organized, trained, equipped, proficient. The 
destroyer is organized, trained, equipped, proficient and 
certified for a whole host of missions. For example, the 
destroyers in the eastern Mediterranean, they are there for 
ballistic missile defense, the European Phased Adaptive 
Approach. They happen to be multimission, so they could do, if 
called upon, other missions, which we are pretty well aware of.
    So back to the Red Sea. Those destroyers that are there, 
they are out about 9 months now, 10, 11. When the time comes 
that we send them home and say we need to sustain this, we will 
need to reach for destroyers coming out of the west coast 
probably, and they are not ready yet. So we will have to now 
tailor and be very clear on what they are certified to do. We 
have never had to do that before, Congressman. So we could be 
very soon in that kind of an arena.
    To summarize, we have a covenant with the global combatant 
commanders and the National Command Authority. We provide 
carrier strike groups forward ready on deployment, and that is 
generally two. We have two to three, generally three ready to 
respond within about 14 days. And then we have about three 
within 60 to 90 days. That is what we have signed up to. That 
is called the Fleet Response Plan. That has to change now.
    Mr. Wittman. Got you. Let me ask you, I think those are 
very great points. Give me your perspective. When we have a 
strike group like Nimitz that now is on deployment now 
approaching 11 months, what does that operational tempo mean 
for sailors? But tell me, too, what does that mean when you are 
looking at maintenance availabilities? And we all know that 
those kind of get stacked up, too. What happens if maintenance 
availabilities have to be cancelled, and then you are talking 
about not maintaining ships? What does that do to affect, 
again, your capacity to respond and then the life expectancy of 
those ships? So give me your perspective on personnel and 
equipment.
    Admiral Greenert. Personnel, we tell our sailors and we 
shoot for, as the Commandant said, you know, he talked about 
dwell and he talked about turnaround ratio and rotation. We 
tell our sailors you should expect about a 7, 7\1/2\ 
deployment. When you get up to 11, they say, okay, you know, 
11-month deployment. Then they come home and then they are 
turning around within about a year. So you are getting close to 
1 to 1.2, 1.3 when you do that by the time that particular 
carrier turns around.
    We are at a point in our economy, things are changing, so I 
am concerned about the debilitating effects of that. Take that 
kind of carrier strike group and its air wing with the ones 
that are sitting there at hard deck. These are shut down. So I 
have got pilots looking out the windows saying, gee, I wish I 
could fly. I have got others saying, I am flying so much and 
deploying so much, I can't even get a will done to do that. And 
so we have got imbalance here, sir.
    Deployment-wise, the carriers are heel-to-toe in our 
nuclear repair shipyards. If somebody is delayed, that is a 
problem and now they are stuck in there, and that means they 
are not ready to deploy eventually.
    The Chairman. Thank you.
    Mr. Barber.
    Mr. Barber. Thank you, Mr. Chairman.
    And before I begin my questions, Admiral, I just want to, 
along with my colleagues, extend my condolences to you and the 
entire Navy family. The whole country, I think, is heartbroken 
over what happened on Monday. I spoke yesterday with Secretary 
Mabus and offered my personal assistance as well as 
condolences. Having been a survivor of a mass shooting myself, 
I have a sense of what is going on with the families, those who 
lost loved ones and those who survived. And I just want to say 
that personally I am available any time for any purpose that 
would be helpful to those families, and please feel free to 
call me for that purpose.
    Admiral Greenert. Thank you, sir. I think we will seek your 
counsel on how to deal with this since you have that 
experience. I appreciate it very much.
    Mr. Barber. Well, let me turn to the questions at hand. We 
have had this discussion so many times. But I just want to say 
at the outset that sequestration was a bad idea and I have 
opposed it since I got here a little over a year ago.
    General Welsh, I just want to ask a question specific to a 
fleet of aircraft that are stationed in my community at Davis-
Monthan Air Force Base. There have been recent reports that, as 
we have discussed here this morning with other potential 
decisions, of getting rid of the A-10 in the future. And some 
people have made the argument that the A-10 just doesn't fit 
the Air Force's future because it isn't a multirole fighter. 
And in my view, this is a very shortsighted and potentially 
dangerous idea.
    As you know, General, the A-10 is unsurpassed in its 
ability to provide close air combat support. And I know fully, 
as you do, the A-10's role in combat, search and rescue 
operations, finding service members behind enemy lines, 
relaying information, escorting helicopters and assets in and 
out of combat zones. And the A-10s based in my district and 
across the country have been retrofitted with new airframes, 
airframe wings, and electronics packages that now have given 
them a life span of till 2028.
    General, as you know, the SCMR is built on four guiding 
principles, and I want to just quote a couple of them. The 
first is that we must remain ready for the full spectrum of 
military operations. And another is that we will remain 
strategy driven based upon the Defense Strategic Guidance and 
our ability to execute our five core missions against the full 
spectrum of high-end threats. Given what we know about the A-10 
and the potential of future need for the A-10, General, can you 
tell me why it is that we would even consider retiring an 
entire fleet of this very valuable aircraft when there is no 
other alternative in place?
    General Welsh. Yes, sir. Because we have been handed a bill 
within the Department of Defense of $1 trillion-plus that we 
have to pay over the next 9\1/2\ years.
    A-10 was my first fighter, Congressman. I love the 
airplane. I have 1,000 hours flying it. It is the best airplane 
in the world at what it does. It is not the best at a lot of 
other things. It is capable in many areas. If we are going to 
look at what we must divest, not what we want to divest, but 
what we must divest, we have to be very honest with ourselves 
inside the Air Force about how much we can afford. And if we 
have platforms that can do multiple missions well and maybe not 
do one as well as another airplane, but the airplane that is 
limited to a specific type of mission area becomes the one most 
at risk, I think there is some logic to this that is hard for 
us to avoid no matter how much I happen to love the airplane.
    Mr. Barber. But how is it possible, General, that we could 
support General Odierno's ground troops should they ever be 
deployed again with another aircraft if the A-10 is not 
available?
    General Welsh. Congressman, people seem to assume that 100 
percent of the close air support being done in Afghanistan 
today is being done by the A-10. That is not even close to the 
truth. It is actually a small percentage of the close air 
support that is being done by many, many other platforms. We 
have got to provide the United States Army, the United States 
Marine Corps, United States naval forces and our coalition 
partners close air support. We do it every day with a number of 
platforms, and we will continue to do that.
    Mr. Barber. Talking to Army personnel who have been 
deployed, they tell me when those Warthogs show up, they are 
much happier than anything else. So I just want to say that 
that is an important area.
    Let me just turn quickly, General Odierno, with the 
remaining time. I am concerned about the future of our ability 
to do cyber and intelligence work. As you know, Fort Huachuca 
is a major area of this. How do you see sequestration affecting 
that? And obviously that is important to our warfighters today 
and tomorrow.
    General Odierno. So in terms of cyber, as was stated by the 
other chiefs of services, is that we are going to increase our 
investment in cyber. Even though we are decreasing our budget, 
we are increasing our investment in cyber. We are going to 
increase the force by at least 1,800 people right now. So that 
is part of what we are doing.
    In terms of intel, as you know, we provide not only intel 
for the Army, but intel for the broader strategic and 
operational force, which is key to the combatant commanders. We 
are reviewing how we do that, but the primacy of what we do in 
our Intelligence Community will not change and the requirements 
that we have in our Intelligence Community will continue to be 
a key piece of our strategy as we move forward. So we are 
looking at very carefully how we gain some efficiencies without 
losing the depth and capabilities that we have to support a 
strategic operational and tactical level.
    Mr. Barber. Thank you, General.
    The Chairman. Thank you.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And as always, thank all of you for coming. You know, it is 
days like this, I suppose, that we are all a little more 
cognizant of the sacrifice that you all personify here today. 
And, Admiral Greenert, I suppose that it is impossible for us 
to be as aware as we are today all of the time of the 
importance of people being willing to sacrifice all of their 
tomorrows so that we could have freedom today. And I certainly 
hold you all in great respect and appreciation.
    General Welsh, I will start with you, if you don't mind, 
sir. Yesterday you gave a brief at the AFA [Air Force 
Association] convention, and you started your speech with a 
thought about partnership and how during times of fiscal 
austerity, if that is what we can call this, rather than 
backing away from or defunding our training opportunities, we 
should, quote, ``hold our partners close.'' And I would like 
for perhaps all of you to elaborate to a degree on how 
important military exercises are with our allies, especially in 
those regions of great instability, and how sequestration might 
affect these opportunities, specifically with allies like 
Israel. And what does it tell our allies and our foes when we 
choose, in my mind, to spend our money wisely on exercises like 
these?
    So, General Welsh.
    General Welsh. Sir, I think it just increases the trust, it 
increases their belief in our willing to partner with them even 
when it is not convenient. And I think if we assume that the 
future is about coalition engagement, which I assume that that 
is the best way for the Nation to go whenever possible, we have 
to have the ability to engage as a coalition, and that requires 
training. It is a very practical problem for the military. It 
is helpful for us, it benefits us in term of time and cost in 
the future, and it creates capability that is meaningful and it 
can be brought together very, very quickly as opposed to 
spending months trying to train together before conducting an 
activity, whether it is a humanitarian relief or it is a 
contingency operation.
    Mr. Franks. Any other thoughts?
    General Odierno. Congressman, it is key. I mean, I just 
returned from the Pacific Army Commanders Conference, and the 
whole point of the conference was about multilateral 
engagements, multilateral exercises, sharing of information, 
interoperability. That is the key as we move forward. I am 
going next week to the European Commanders Conference. Why is 
that important? Because NATO [North Atlantic Treaty 
Organization] and our close allies are helping us as we work 
issues in other parts of the world. So the interoperability 
piece, it is all very important to them. And so to me it is 
key. In the future, we are going to have to operate in a joint 
interagency, multinational environment. We know that. And we 
have to do that the best we can.
    My only last point would be is our partners are also 
significantly reducing their investments in their militaries, 
so we have to be very careful about our assumptions about what 
we think they will do for us, because they are reducing as 
well. So it is a combination of all of those things we have to 
consider as we move forward.
    Mr. Franks. Please.
    Admiral Greenert. If I may. Partners, allies very 
important. We need to look beyond it. And I would say I just 
had the opportunity last week to sit down with my counterpart 
in the People's Liberation Army Navy, Admiral Wu Shengli, and 
negotiate eight opportunities for further engagement and 
partnership potentials at sea. So this goes, as my colleague 
said, it is clearly important for us and allies, but it goes 
beyond that.
    Mr. Franks. Yeah. Well, General Odierno, I might ask you 
one more question. You know, I had the privilege, I guess you 
would call that, of being in a helicopter 150 feet off the 
ground and 150 miles an hour pitch black going over Iraq, and 
you were one cool customer, might I add. You had a lot of faith 
in that helicopter pilot. But would you agree that relying more 
on operational Guard and Reserve will help mitigate the rising 
personnel expenditures and knowing that, you know, these men 
and women, obviously they are paid only when they are trained 
or mobilized, but also recognizing that they have a proven 
combat capability and we would maintain a strong protection for 
our country?
    General Odierno. We have to have the right combination, 
Congressman. So it is not Guard versus Active. I have got to 
have the right number of Active and I have got to have the 
right depth that is provided by the National Guard and U.S. 
Army Reserve. It is not one or the other. And you can't compare 
costs, because they provide different capabilities based on the 
dollars that they are given obviously and the time that they 
have to train and the time they have. So it is gaining that 
right synergy between the two.
    So as I have developed, and as I testified, we are taking a 
26 percent reduction in the Active Component and only a 12 
percent reduction in the National Guard, so I have taken that 
into consideration. But to go further than that is very 
dangerous because you lose the immediate readiness that you 
have with the Active Component. We need both, and I am an 
advocate of having both.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank all of you.
    The Chairman. Thank you.
    Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman. As presented in the 
report, under sequestration the cuts will be either in 
capability or in capacity. And, Admiral Greenert, I was hoping 
to ask you if you could describe those tradeoffs when 
discussing the submarine fleet.
    Admiral Greenert. We need to have an adequate submarine 
fleet to distribute in a proper way what the combatant 
commanders need and what we need to respond to around the world 
for the missions. So that is a capacity piece. But you can't 
cover all the oceans of the world with submarines. So it gets 
to what capabilities do we need to have an undersea network of 
submarines, fixed and unmanned systems under the ocean. So we 
have got to develop those capabilities.
    And then aircraft, the P-8 aircraft and the Broad Area 
Maritime Surveillance. That is a Global Hawk kind of tricked-
out for maritime operations. It is a combination of that 
network. And, number one, you have to have all of the 
capability of that network. Then number two, the capacity to 
broaden it. But I think step one, we need to bring in that 
capability. So that is the priority that I put in that when I 
talk undersea domain.
    Mr. Kilmer. Thank you.
    I know the focus of this hearing is on sequestration, which 
I think I have concluded is a Latin word for stupid, but now we 
are also facing a potential government shutdown. And certainly 
in my neck of the woods, where we have Naval Base Kitsap and 
then Joint Base Lewis-McChord, a lot of the focus has been on 
the potential kind of parochial economic impact of seeing a lot 
of civilian workers not receiving a paycheck. I was hoping you 
all could speak instead, though, to the national security 
impacts of a potential shutdown.
    General Odierno. First, I would like to talk a little bit 
about the impacts on the individuals. You know, we furloughed 
this year. It was horrible, you know. And it kind of comes to 
roost when you look at what happened this week. You had these 
dedicated civilians who dedicate their lives to our military, 
and because of these reductions we are furloughing people who 
have given their lives to us, and yet we are forced to do these 
kind of things. So for me it is unconscionable that we have to 
do this. And if we can ever avoid it, we will never do it 
again.
    But the national security impacts of reducing the size of 
our civilian workforce, it was mentioned earlier, the Ph.D.s, 
the scientists, the engineers, the logisticians that support 
us, we are going to lose that capability. And once you lose it, 
it is very difficult to get it back. And that becomes a real 
concern for us, that in a time of need, if people think we can 
automatically regenerate this capability, you can't. And so we 
now have a problem. And so for me, that is the real strategic 
impact of those reductions.
    Admiral Greenert. If you go up to Fort Meade and you look 
in the parking lot, I mean, those are our civilian, to me, 
sailors and airmen and marines and soldiers. And so I think the 
national security implications are obvious. You go to Offutt 
Air Force Base, it is Strategic Command. And then you go to, 
you know, what you and I are familiar with, our public 
shipyards, our naval shipyards, hey, we are heel-to-toe in 
there, and so we have got to get that work done. It starts 
falling behind, we have aircraft carriers that are not ready to 
go out and go out in the world, and so whoever is out there is 
stuck, and that is untenable.
    General Welsh. Just from a corporate perspective, if you 
just forget the personal impact, which is dramatic, 8 million 
man-hours lost for the Air Force with 6 days of sequestration 
this year. That is an awful lot of work that is not getting 
done on behalf of the Nation.
    Mr. Kilmer. I had another question, but I don't think time 
will permit, so I will just end by echoing the condolences 
extended, Admiral Greenert, to you and to your team.
    Admiral Greenert. Thanks, Congressman.
    The Chairman. Thank you.
    Mrs. Roby.
    Mrs. Roby. Thank you, Mr. Chairman.
    Thank you, again, to all of you. And, Admiral, on behalf of 
my family, we certainly are thinking of you and the Navy and 
all of the families and personnel that are affected by this.
    And to each of you, I always want to take the opportunity 
to thank you for your service to our country, but also to 
extend that thank you to your families, to your spouses and 
your children and all the sacrifices that they make.
    General Odierno, first and foremost, I appreciate the 
Army's execution of the ITEP, the Improved Turbine Engine 
Program, and its acquisition strategy of maintaining 
competition to milestone B. And as you know, Congress continues 
to support this important program, as evidenced in our defense 
bills, for the increased capability it provides and because it 
is in compliance with best practices and acquisition reform 
measures to reduce risks early on in a program. And so I 
believe that maintaining competition and schedule reduces the 
risk considerably for the Army and the taxpayer. Can you please 
just comment on the Army's commitment to competition in support 
of the ITEP program?
    General Odierno. No, you have hit the points. We agree. It 
is about the best engine for the best price while preserving 
competition to minimize our risk, and that is what this does. 
And so for us, we are totally committed to it. You know, we are 
going to wait for the analysis on alternatives as we decide for 
our future investment in this. And it becomes even more 
important, because sequestration actually makes it more 
difficult to pursue robust R&D [research and development] 
efforts. We have got to do this the best way we can, programs 
like this. And so for me this is kind of our model going 
forward, and so we are very pleased with this program and we 
are obviously going to continue to support it as we move 
forward.
    Mrs. Roby. Thank you.
    General Welsh, you know, I feel very strongly that 
education and training is the cornerstone of our modern day Air 
Force, and I am very sure that you feel the same way. And so I 
would like if you would please talk about the Air Force's 
commitment to ensuring that that cornerstone remains strong and 
what transformations you anticipate for Air University's 
officer and enlisted professional military education [PME], and 
particularly in light of all of the things that we have 
discussed here today, not just sequester, but the potential to 
operate under a continuing resolution, as well as issues 
surrounding the debt ceiling debate.
    General Welsh. Thank you, Congresswoman. I do share your 
view on education and training being foundational to our Air 
Force. I spent time 2 weeks ago, 3 weeks ago, I guess, down in 
Montgomery talking to the leadership at Air University, last 
week down in San Antonio talking to the leadership of Air 
Education and Training Command. We discussed the enlisted PME 
program that is under development to turn it into a continuum 
of learning, using both distance learning and residence 
courses.
    Same thing on the officer side of the house, what can we 
afford to do, and what we cannot afford to do is stop educating 
our professional force and stop training it better than anyone 
else trains their airmen. We are committed to this. We will 
remain committed to it. Everything is affected by 
sequestration, but this is not something that would be a wise 
long-term move to take a whole lot of capability out of our 
ability to educate and train these great airmen we are lucky 
enough to have come into our Air Force.
    Mrs. Roby. Well, I appreciate that continued commitment.
    And again, to each of you, thank you for all that you do. 
We appreciate your candor here with us today in light of these 
very difficult decisions that we have ahead, and we appreciate 
your continual efforts to educate us so that we are better 
prepared as we move into that.
    So, Mr. Chairman, I will yield back.
    The Chairman. Thank you.
    Mr. Enyart.
    Mr. Enyart. Thank you, Mr. Chairman.
    General Welsh, I had a couple of questions specifically for 
you. Yesterday afternoon, I had an Air Force Reserve wing 
commander in my office. And he was talking to me about the 
sequester and the effects of sequestration on his role. And he 
particularly expressed to me concern about the way the 
furloughs had been handled, that is going from 22 days to 11 
days to 6 days over a period of time, and because of the impact 
that it had on those people.
    There are now serious trust issues between his Air Reserve 
technicians, his civilian workforce, and the Air Force and DOD. 
And as the wing commander, he feels that tension and those 
trust issues.
    General, I am sure that those trust issues extend 
throughout the entire DOD civilian workforce. And now, earlier 
this morning, you testified that the Air Force is not planning 
for any furloughs for fiscal year 2014. So with Scott Air Force 
Base sitting in my district, am I able to go back to my 
district and assure my rather anxious constituents, as well as 
that Air Force Reserve commander, am I able to assure to them 
that the Air Force is not planning any furloughs for 2014?
    General Welsh. Sir, I meant exactly what I said: We have no 
plans to furlough in fiscal year 2014. I will add this, we had 
no plans or even concept of furloughing in fiscal year 2013. I 
had never heard of it before. We have got to resolve whatever 
we call this thing, sequestration, fiscal crisis whatever it 
is; we have got to fix it. We are doing things that are 
unprecedented as far as decisions being made inside services, 
including furloughs.
    It was a breach of faith with our civilian workforce. I 
tell everybody in the Air Force that. I sent a letter to every 
civilian in Air Force saying that. I understand why the 
decision had to be made. I understand why we didn't have the 
transfer authority to take money from other places to put in 
the civilian pay accounts, but we as a government have got to 
do better on this one.
    Mr. Enyart. General, I couldn't agree with you more. And I 
think that it has been clearly expressed here today. But 
sequestration was a bad idea to begin with, and it is a worse 
idea as we go forward, particularly when we are dealing with 
CRs and all of the problems that that impacts on your budgets 
and the budgets of everyone, frankly.
    General, I did have one other question for you and that is 
that if sequestration continues, will the Air Force have to 
reconsider its KC-46 alpha basing decisions?
    General Welsh. I don't believe there is any reason to 
reconsider the basing decision as a result of sequester, no, 
sir.
    Mr. Enyart. Thank you.
    Admiral, as the son of a Navy firefighter and even though I 
chose the path of ``Go Army, Beat Navy,'' I would like to 
express my condolences to the entire Navy family.
    Admiral Greenert. Thank you, Congressman.
    I know it comes from the heart. I appreciate it.
    Mr. Enyart. Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And I want to thank all of our service chiefs for all that 
you do, and obviously, you care immensely about this Nation, 
but more importantly, I believe you care about those that serve 
under you and that carry the task out on a daily basis.
    So, General Odierno, I really do appreciate your comment in 
regards to soldiers have got to be number one. They have got to 
be the number one priority. And I worry, and I am new to this 
committee as of at least January, I worry that through 
sequestration and through the political gyrations that got us 
there, it doesn't matter how we got here, but we got here, the 
damage that we are doing to our services--and I think you hit 
it on the head when you said that we really don't do a very 
good job of identifying future threats. I think major threats, 
strategic threats, probably so, but I don't think anybody saw 
Afghanistan or Iraq coming up on the horizon.
    And now we are bringing our force structure, I agree with 
you, dangerously low, and the lack of readiness across the 
whole mission area should concern everyone. And I am concerned. 
And I am concerned about the readiness of our troops, in 
particular across all the services, but obviously, in the Army, 
just because of the large nature of it and the, in the Marine 
Corps, the personal nature of that type of combat that you have 
to engage in puts people at extreme risk on a very close basis.
    How do we continue to keep a force that is all volunteer? 
How do we continue to keep them in place when we hear from, in 
the SCMR, in particular, was talking about benefits for those 
that are going to serve us and have volunteered to serve us and 
put themselves at risk?
    General Odierno. Thank you for that question because it is 
a very important question as we look to the future. And there 
is no doubt in my mind, I think it is absolutely essential we 
keep an All-Volunteer Force for a lot of different reasons. I 
won't talk about that.
    Let me talk a little bit about compensation. We have very 
generous and appropriate benefits packages today for our 
soldiers, sailors, airmen and Marines in my opinion. But what I 
think, as I go around and talk to our soldiers, they understand 
the fact that we are not going to, our thoughts at least on pay 
and benefits is not to decrease them but decrease the rate of 
increase. And if we do that, we can save enough money that 
allows us to appropriately continue to have an All-Volunteer 
Force. And they understand that.
    So I think we have to work together with Congress on this 
because I know how much you care about taking care of our men 
and women in uniform. That is very clear. But we have to come 
together to decide there are ways to do this in such a way that 
we don't reduce their pay but reduce the increases that we have 
projected, which saves lots of money. And that will enable us, 
I think in the long run, to maintain an All-Volunteer Force.
    Mr. Nugent. I faced the same issues when I was sheriff in 
regards to budgeting and looking at the increases as it 
forecast down the road, so I get that. But I also hear it 
relates to, it is not just pay, and you hit it on the head. And 
I had the same thing in the civilian world, but it is about 
training in particular about, you know, are men and women 
having the ability to fly, are men and women having the ability 
to go to advanced training?
    Yes, sir, Admiral.
    Admiral Greenert. Well, in the Navy, we talk about a 
formula, the quality of the service, of the sailor, equates to 
their quality of life--and that is the stuff we were talking 
about, their pay, their housing, their entitlements and all 
that--and the quality of their work. And that is what you just 
hit the nail on the head Congressman.
    Do I have spare parts? Do I have a boss that cares for me? 
Do I have a boss? Am I training? Do I feel like I am doing 
something worthwhile? And is my schedule predictable? What is 
their work environment?
    In our world, when they leave the pier, walk across the 
road and get in their car and drive off, their quality of life 
is pretty good and General Odierno relayed that.
    When they go back down the pier, get on the ship and go out 
to do that, we have work to do there, and I am concerned that 
we focus so much on the quality of life, and the quality of 
work vector is going down a lot. And we need to balance that, 
in my opinion.
    Mr. Nugent. I agree. And just one last statement, it is not 
a question to you, because you don't have the answer on this 
one, but I really do call upon the Commander in Chief to take a 
more active role in regards to working with this Congress, 
particularly with the Senate, to move issues as it relates 
directly to our security here in this country and having the 
ability to project force but also to protect the forces that we 
are projecting.
    And I think the Commander in Chief owes that to those that 
he commands and has that overall responsibility.
    And I yield back. Thank you.
    The Chairman. Thank you.
    Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chairman.
    Admiral, I will confess to you that there is not a lot of 
water where I live. But I will also tell you that every single 
resident of that congressional district, the 23rd in Texas, 
feels your pain. And on behalf of the constituency that I 
represent, I want you to know that our prayers are with you, 
with your fellow members of the service, and certainly with all 
of the families who have lost someone over the course of the 
last few days.
    Admiral Greenert. Thank you, sir.
    Mr. Gallego. I have the privilege of representing several 
military facilities, Joint Base San Antonio, which includes 
multiple Air Force and Army components, Laughlin Air Force 
Base, and in El Paso County, there is Fort Bliss. They are all 
very dedicated public servants, both in the uniform side and 
the nonuniform side. And my own view is they deserve better 
than what they are getting from our government, certainly from 
the Congress.
    As I have listened to the testimony, it seems to me that, 
in some instances, Congress is a very difficult partner because 
we make our life harder, instead of easier, and you can't say 
that, but I can, especially since I just got here in January.
    So when I listen to the idea, for example, that having to 
reduce pilot production, potentially reducing 25,000 airmen or 
a 9 percent cut in aircraft or choosing between readiness today 
and a modern Air Force tomorrow, or when I listen to the 
testimony about how it is unconscionable to do the furloughs, I 
understand that all of that is not in your control. It is in 
the control of the members of this institution. ``Institution'' 
is a very interesting word for this place.
    I would like to talk, General Odierno, you and General 
Walsh, about the impact of one of the disconnects I think there 
is, is many people don't understand the importance of the 
civilian side with respect to the uniform side. And so when you 
look at Joint Base San Antonio or when you look at Laughlin, 
people don't understand--or Fort Bliss--the importance of the 
contribution of the civilian side.
    Can you talk a little bit about that and how that spillover 
affects the uniform side? And how they work in tandem? And if 
you have specific examples about, at some point, I would also 
like specific information offline about the bases that I 
represent and how they would be impacted.
    General.
    General Odierno. So, for us, you know, we have three major 
commands, actually four major commands, in San Antonio. We have 
Medical Command. We have Installation Management Command. We 
have U.S. Army North and U.S. Army South, all in San Antonio. 
They are three, four key components to what we do in the Army. 
And medical, obviously, a huge responsibility of providing 
support to our soldiers, both in combat and our families and 
not in combat, and our civilians there play a huge role in that 
command. Installation, they manage all of our installations, 
both in the United States and outside the United States, a huge 
role. And then Army North is one who is really the Army 
component to provide homeland defense, homeland security for 
our Nation. These are all key components. They all have key 
civilian workforce that is essential for them to accomplish 
their mission.
    In fact, at SAMMC [San Antonio Military Medical Center], 
the hospital in San Antonio there, we have some concern. We are 
losing some of our critical civilian employees because of the 
furlough because they would rather go work now for VA [Veterans 
Affairs] or other opportunities because now they have lost, as 
has been mentioned, there some faith and trust in the fact that 
they will have some consistent employment with the Department 
of Defense, so those things that I will tell you are so 
important to us.
    Mr. Gallego. General.
    General Welsh. Sir, I will give you an example, the 
maintenance group at Randolph Air Force Base. I was down 
visiting with the maintenance group director, who is a 
civilian, the entire maintenance group at Randolph Air Force 
Base to support the training that goes on at that base, the 
flying training, is civilian, all Air Force civilians.
    Because of the furlough this last year, we actually lost 
enough of those 8 million man-hours I mentioned that weren't 
being done, a percentage of those were at Randolph, a large 
enough percentage that we lost the ability to support a number 
of flying hours equal to an entire pilot training's class worth 
of work, which is why I said in my opening statement, we will 
look at changing our initial pilot production numbers next year 
because we learned here we are going to have to cut a class, 
whether we want to or not, just as a result of lost production 
and from the impact on our civilian workforce and on our 
depots.
    The other place it affects us is when you take 8 million 
man-hours off the books, there are tasks that would have been 
done during these 8 million man-hours that can't wait because 
of the operational activities that they support. So the uniform 
workforce that is there will pick those up as an additional 
duty. The civilians would have done it and just worked a longer 
day before they took their furlough, but we are not letting 
them, so we can limit the number of hours we have to put 
against furlough, and we are not letting them work overtime. So 
everybody is frustrated because they like to do their job, not 
just because they are losing 20 percent of their pay during 
that period.
    Mr. Gallego. Thank you.
    The Chairman. Thank you.
    Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    And thank the gentlemen here today for your testimony and 
the answers to our questions. I think we are, there has been a 
lot of talk about sequestration. I don't think anybody in their 
hearts voted for sequestration. I think it was just something 
that was a part of a bad bill that was put together, and we 
were never meant to get here, and I think everybody has pretty 
much said that in different ways.
    But if we go back to Admiral Mullen, he basically, where 
you are, said the greatest threat to our national security is 
our national debt. We are $17 trillion in debt, and there seems 
to be no turning that around.
    We have had record deficits. We have had record 
unemployment for the past 4 years. And there seems to be no 
solution to it. And so that is why we are having these 
arguments, these fights, not just inside each party and also 
with other, you know, outside the party; it is because we are 
fighting over shrinking discretionary budgets.
    And while we do nothing to address the number one driver of 
our deficits and our debt, and that is the mandatory out-of-
control entitlement spending. And I hate this because I feel 
like this is going to be Groundhog Day over and over as long as 
we are in Congress. It is just deja vu. We are going to keep 
having these conversations.
    But until we put people and policy ahead of politics, we 
are going to have to keep having these squabbles amongst one 
another. And we can get there. We can fix our economy. It is 
simple. We just have to listen to the American people, and I 
think they want to see our spending cut, but they want to see 
it done responsibly.
    I think they want to see a balanced budget. All 50 States 
have a balanced budget. Why is the Federal Government 
different? Is it somehow more special? And they want to see us 
grow the economy. What people are talking about in my district 
when they are not being distracted with Syria or Obamacare or 
something else, they are talking about jobs. They are starving 
for jobs. They want to see this economy get back on track. And 
you know, there are some of us that know how to create jobs in 
Congress. And I think we need to elevate their voices. And we 
do that through less taxes, less regulation. We don't need to 
have throwing up obstacles because there is a lot of money 
sitting on the sidelines, but people are uncertain. They don't 
know what is going to happen tomorrow. So they are very much 
reserved.
    I would just like to say a few comments. I hope that the 
Guard and the Reserves does not go back to being a strategic 
Reserve. I hope they maintain an operational force presence. I 
think it is extremely important. I think they have earned their 
place in our military. They cost one-third of what an Active 
Component would. But also, I think there are multiple missions 
they can engage in. I know they have some border enforcement 
opportunities in the past. I think we can--instead of adding 
40,000 more Border Patrol agents, we ought to see how we could 
surge the Guard to the border; maybe other homeland security 
means, too.
    Also, with our, Admiral Greenert, with our pivot to the 
Pacific, I know we are going to need ships, we are going to 
need destroyers, we are going to need amphibs. And I know with 
the multiyear ship procurement and being able to plan in 
advance that is a benefit, and I hope this Congress continues 
to do that to give you the ability to go drive down costs and 
get the best quality product for our taxpayer.
    General Welsh, I can't thank the Air Force enough for 
delaying the transfer of the C-130J's. I have been kind of on 
that for a long time. I know because there is so much 
uncertainty. We don't know what the force is going to look like 
tomorrow. And I tell you the community, the Mississippi 
community is very appreciative because after winning the 
Commander in Chief's Installation Excellence Award out of all 
the bases in the military, we hope you take a hard look moving 
forward. And hopefully, you will determine that they need to 
stay there.
    I do have one question. This question will be for General 
Amos. As sequestration settles on the force, we hear often that 
services will be forced to do less with less. In your 
unvarnished opinion, what are the risks to major contingency 
operations, as well as steady-state ops, if they continue and 
these cuts are realized?
    General Amos. Congressman, thanks for the opportunity to be 
able to speak frankly about that. I don't see any slacking in 
the requirements for all of our services for the next decade. I 
read the same pundits. I read what they say. I listen to them, 
and they talk about a peace dividend coming out of Afghanistan. 
And I think that is overly optimistic at best. I don't see the 
requirements changing. In fact, I would say the world is 
probably more dangerous today than it was prior to 9/11.
    Folks have said, and I began to, as we shape the Marine 
Corps down to this 174 force--and as I said in my opening 
statement, it was a budget-driven effort; it wasn't a 
strategic-driven effort--I started with, well, okay, we will do 
less with less, but what we will do we will do very well.
    I don't believe that. I think we are going to do the same 
with less, and we are going to do that very well. We are going 
to work real hard to do that. But I don't see any slacking of 
it, Congressman, if that answers your question. I think we are 
going to be doing the same with less.
    General Odierno. I know we are out of time. If I could just 
add, the issue is let's take 2013; 2013, we were under 
continuing resolution with sequestration. And if you asked each 
one of us, we would tell you our requirements went up in 2013. 
That is the concern. So budget went down, forced by 
sequestration, and our requirements increased as the year went 
on.
    That is the conundrum that we are in right now, and that is 
my concern as we continue down this road.
    So, thank you, sir.
    Mr. Palazzo. And it is ours as well.
    Thank you, gentlemen.
    The Chairman. Thank you.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    And I, too, would like to offer my condolences from the 
people of New Hampshire's First District. And I would like to 
say that while the sequester is absolutely devastating, I have 
concerns about what we are saying openly and letting people 
know, and I am amazed that probably more people abroad and our 
enemies know the impact more than the Members of Congress. And 
that is absolutely shameful.
    There is a bill that could cancel the sequester today if it 
would only come to the floor. But I am very, very concerned, as 
we all are, but the message doesn't seem to be leaving this 
chamber right now.
    So, while we are dealing with this, I would like to talk to 
all of you about the impact on the civilians, the impact on the 
members of the services and what appears to be the lack of 
impact on contractors right now. I know that, for the 
headquarter budgets, they are talking about 20 percent cuts for 
the civilians who work for the government and also seeing it in 
the budget. But I haven't heard that talk about contractors.
    So could each of you address that? I actually saw something 
that said contractors numbers or their profits hadn't seemed to 
drop along with the pay that dropped for some of the people who 
are serving our country.
    So I would like to address that, please.
    General Odierno. Thank you for the question. As part of the 
guidance the Secretary of the Army and I gave, as we were 
looking at the Army, the Army is looking actually at a 25 
percent reduction in headquarters because we are trying to gain 
as much space.
    The first place to look, the guidance we gave, was with 
contractors, knowledge-based contractors we call them who do 
studies and other things, as well as other types of contractors 
that we have. Because we want to try to keep as much of the 
civilian force and our military force as possible.
    So we are absolutely looking at that as we move forward. 
That is one of the key pieces. And we have a study group that 
is coming back to us with recommendations that we expect will 
happen within the next several months.
    Ms. Shea-Porter. Do you expect that will help you save 
money? Because I know when they were asked, the contractors 
cost an average of about 2 and a half times more than a 
government employee.
    General Odierno. They do. The balance is they give a short-
term capability. But, yes, it will save us money and allow us 
to invest in other places or not take cuts in other places.
    Ms. Shea-Porter. I am encouraged to hear that.
    Admiral.
    Admiral Greenert. Yes, ma'am. As I look out at the 2015 to 
2022 timeframe, that SCMR piece, and we addressed this in our 
ALTPOM, we are looking at about a one-third reduction in 
overhead and that includes contractors. We have methodically, 
in partnership with our research development acquisition 
executive, Mr. Stackley, gone through and reduced support 
contracts.
    This has been quite a drill to go in there and peel apart 
where the money goes precisely. But that is $20 billion of a 
$60 billion that we are targeting. Now that is across a FYDP 
[Future Years Defense Plan], a 5-year plan.
    Overhead-wise, like Ray says, we are about the 28 percent 
on reduction of headquarters. That is not contractors, but it 
is overhead and headquarters reduction.
    General Welsh. Exactly the same ma'am. Contractor 
reductions will be at least the same if not greater than 
reductions in our civilian workforce.
    Ms. Shea-Porter. So you are targeting that.
    General Amos. Congresswoman I think we are all in sync on 
that. We are all reducing both civilian personnel in the long 
run as we go through the ALTPOM. In my service, we are reducing 
28,000 Active Duty Marines, so there will be a commensurate 
civilian reduction. We don't know what that is going to be yet. 
But we are looking very seriously at our contractors.
    I would just like to make an anecdotal comment on 
civilians; as we have talked a lot about furloughs here today, 
we have talked about in essence keeping the faith. I think we 
are in danger of losing those wonderful, highly skilled 
professionals that my colleagues have talked about here today 
because of the furlough and then the anticipation of a 
government shutdown. And they will reach a point where they are 
going to look for employment elsewhere, whether it be in San 
Antonio; you are medical professional, whether you are a Ph.D.
    It became a point of faith in the United States Marine 
Corps as I looked at our civilian Marines, and I think we are 
in danger of losing an awful lot of talent if we continue to 
abuse them.
    Ms. Shea-Porter. I do, too. I thank you for saying that. We 
have the Portsmouth Naval Shipyard in our district, and the men 
and women who go there and serve this country every day deserve 
better than what they are seeing.
    We also have a National Guard. They deserve better. And so, 
across the whole spectrum, the men and women who serve this 
country deserve to know their paycheck will be there and they 
can count on us. And so far we have failed them.
    Thank you, and I yield back.
    The Chairman. Thank you.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Admiral Greenert, I, too, join my colleagues in giving my 
condolences. And I will tell you I was very impressed by the 
actions of your personnel in helping one another survive that 
tragic situation.
    Admiral Greenert. Thank you, ma'am. I appreciate it. I know 
it is from the heart.
    Ms. Duckworth. Thank you.
    General Odierno, you and I have had this conversation 
before, and I just sort of would love for you to expand a 
little bit on the role of the Guard and Reserve. You have been 
very clear, and I appreciate it, in terms of defining a role 
for the Guard and Reserve, not only in a new strategic 
environment but as an operational force and also in the current 
budget climate. I don't have any military bases in my district, 
but I certainly have a lot of National Guardsmen and 
Reservists, and I also have a lot of military technicians 
suffering from the furloughs trying to keep those helicopters 
and those aircraft functional.
    And as we see in Colorado right now, the National Guard has 
really stepped up with those efforts.
    Could you speak a little bit, General, given the lower life 
cost of the Guardsmen and Reserve Components compared to Active 
Duty, could you speak a little bit to what extent or ratio you 
would like to see a reduction of the Active Component be in the 
relation to the Guard and Reserve?
    General Odierno. Sure thank you. So as I have testified, if 
we have to go to the full sequestration, there will be a 26 
percent reduction in the Active Component, a 12 percent 
reduction in the National Guard, and an 8 percent, 9 percent 
reduction in U.S. Army Reserves.
    Now I want to go back to somewhat the question that Mr. 
Palazzo asked, the real reason is if I keep their structure, I 
am not going to be able to fund them as an operational Reserve. 
I can't afford the training to keep them as operational 
Reserve, which is what I want.
    So I have got to reduce their structure a little bit but 
not as much as the Active Component because I don't get as much 
savings.
    Now, the overall balance, though, I have to maintain is, 
obviously, they cost 33 percent of the Active Force, but their 
readiness is less than the Active Force so I got to keep that 
right balance. So I need the right amount of Guard. I need the 
right amount of Active Component, and I am very conscious of 
that as I work my way through this.
    So I have, in fact, taken more out of the Active Component 
because of that cost factor, but I have to take a little bit 
out of the Guard so I can continue to keep them and fund them 
as an operational Reserve.
    And so that is the balance that I am trying to achieve. 
There are some that say we should increase the Guard and 
further reduce the Active. To me, that is out of balance, and 
then we will not have the capability to respond the way we need 
to for contingency operations. So I am trying to find that 
right balance.
    Ms. Duckworth. Thank you. General Welsh, could you address 
that as well?
    General Welsh. Yes, ma'am. The cost is different, and you 
can save more capacity and force structure by putting into the 
Reserve Component over time, you just have to balance how far 
you can go in each mission areas, and we are looking at it by 
type aircraft even within those mission areas because you do 
hit a point where your operational capability or your ability 
to respond quickly are impacted.
    It is different in every mission from space to mobility to 
fighters; they are all different. And we are looking at each 
one.
    The other thing I think that is important for us to 
consider is the real benefit of a Reserve Component to the 
Nation is that you have this very experienced force over time 
that is available to respond quickly in any type of 
contingency, small or large.
    One of the most troubling things we are seeing right now 
is, over the last couple of years, a much diminished desire by 
people leaving the Active Air Force to go into the Reserve 
Component. Only 15 percent of those eligible are doing so over 
the last 2 years. That is much lower than traditionally.
    And if we get to the point where our Reserve Components are 
inexperienced, while they may be cheaper, they will not provide 
the operational Reserve that you need to be a valid fighting 
force as an entire total force.
    And so we have got to make sure we aren't doing things in 
the Active Component that keep people from becoming members of 
the Reserve Component.
    So we are looking at all that right now. We have actually 
got a very robust discussion going. The biggest issue is still 
exactly what are the cost factors in each of these areas. We 
decided on a model we are using for planning, but that model 
probably still needs to be refined a little.
    Ms. Duckworth. Can you speak a little bit to the role of 
military technicians in your Reserves and then also to the 
Guard?
    General Welsh. Yes, ma'am, they are essential. They are 
essentially, 4 days a week, a civilian member of the Air Force. 
Our civilian workforce is essential. We can't do our job 
without them. They are in virtually every mission area, and in 
some mission areas, they are the entire mission area, like the 
maintenance group I mentioned before in our training command. 
The same thing is true at Guard and Reserve units. That is what 
the dual status technicians do. They are fantastic.
    Ms. Duckworth. Thank you. We could end sequestration. We 
should end sequestration. And I don't think people realize that 
those military technicians are soldiers, airmen, folks who do 
both jobs, and if you are going to ask them to give up their 
jobs on the full-time side, they are not going to be there on 
the M-day side. I yield back.
    The Chairman. Thank you.
    Mr. Castro.
    Mr. Castro. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony.
    Admiral, my condolences for the tragedy in the Navy Yard, 
along with the other members.
    I represent San Antonio, Texas, of course, very important 
in the military, and I have a few questions about some of the 
operations there.
    The first one is, do we know what impact will another round 
of sequestration cuts have on the services provided at Wilford 
Hall Ambulatory Center? And can you address whether medical 
research performed at Wilford Hall will be impacted?
    General Welsh. Congressman, I can't give you an answer on 
the specific impact of sequestration at Wilford Hall, but I 
will get it to you. I am sorry, I just don't know the details 
of that.
    [The information referred to was not available at the time 
of printing.]
    Mr. Castro. No problem. The second one that, of course, 
concerns San Antonio, in my district, I have Lackland Air Force 
Base, is will sequestration affect any of the programs related 
to combating sexual assault in the military?
    General Welsh. No, sir.
    Mr. Castro. So those will be protected?
    General Welsh. We actually protected our civilian workforce 
involved in sexual assault, sexual assault response 
coordinators, a few victims advocates, et cetera, from furlough 
to prevent that from occurring and will continue to put that 
kind of emphasis on those programs.
    Mr. Castro. Those are my two questions.
    Thank you very much.
    I yield back.
    The Chairman. Thank you for your testimony, for your work 
and for the continued efforts that you make to live with these 
very restrictive budgetary problems that you are dealing with. 
I know that this is going to be an interesting week for us. We 
have to get a CR passed. We have to shortly get a debt ceiling 
limit increase. And I think every Member of Congress is taking 
these issues seriously, but there is 435, 434, maybe 433 
Members now, and they come at it from, every one of those come 
from different directions.
    I know that the Armed Services Committee is keenly aware of 
the points that you bring up and I think very supportive of the 
military, and we are the largest committee in Congress, and 
maybe we can have some sway in some of these discussions. We 
haven't done so well so far. But maybe, going forward, we can.
    Again, thank you for your service. Please let the men and 
women you serve with know that we appreciate greatly their 
efforts and the things that they do.
    With that, this hearing is adjourned.
    [Whereupon, at 12:40 p.m., the committee was adjourned.]


=======================================================================

                            A P P E N D I X

                           September 18, 2013

=======================================================================


=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 18, 2013

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T2963.001
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.002
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.003
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.004
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.005
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.006
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.007
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.008
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.009
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.010
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.011
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.012
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.013
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.052
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.015
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.016
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.017
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.018
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.019
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.020
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.021
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.022
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.023
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.024
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.025
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.026
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.027
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.028
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.029
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.030
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.031
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.032
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.033
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.034
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.035
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.036
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.037
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.038
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.039
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.040
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.041
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.042
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.043
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.044
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.045
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.046
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.047
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.048
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.049
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.050
    
    .eps[GRAPHIC] [TIFF OMITTED] T2963.051
    
.eps?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 18, 2013

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. As DOD implements the Secretary's planned 20% cuts to 
headquarters, how will the Department balance these cuts among 
contractor, military, and civilian employees? Does the Department have 
sufficient visibility into the size and cost of the contractor 
workforce in headquarters roles?
    General Odierno. [The information was not available at the time of 
printing.]
    Mr. Langevin. As you are all aware, defending investments in 
research and development can be very difficult since the investments, 
while crucial to future capabilities, are necessarily speculative in 
nature, and don't have much of the bureaucratic support or immediate 
impact of, say, an increase or decrease in an active procurement 
program. Can each of you speak to the ways in which the services and 
the Department have valued R&D and STEM investments in your budgetary 
deliberations, as well as the pressures that sequestration's budgetary 
bottom lines and across-the-board nature have placed on those 
activities? How has the Department weighed the risk factors of 
decreasing or increasing R&D and STEM relative to other investments, 
particularly given the hard budgetary futures that you are examining?
    General Odierno. [The information was not available at the time of 
printing.]
    Mr. Langevin. Can each of you address the effects of continued 
sequestration on cyberspace activities and how you intend to manage the 
fiscal pressures given increasing demands in this regime, particularly 
in light of the reports of CYBERCOM's plan to grow the number of cyber 
operators?
    General Odierno. [The information was not available at the time of 
printing.]
    Mr. Langevin. Admiral, I appreciate the emphasis you placed in your 
testimony on the critical importance in any budget scenario of our 
undersea capabilities--Virginia-class subs, the Virginia Payload 
Module, and the Ohio Replacement. Since, as you know, I strongly agree 
with that sentiment, it was all the more jarring when you stated on 
September 5th that ``shipbuilding will drop in fiscal 2014,'' and 
specifically that you envisioned ``the loss of a littoral combat ship, 
an afloat-forward staging base and advanced procurement for a Virginia-
class submarine and a carrier overhaul.''
    I'm assuming that the reference there was to a FY15 boat per your 
testimony, but could you speak to how would this affect the proposed 
block buy? Is this an effect of the need for an NDAA and an 
appropriations bill, of the reduced spending levels associated with 
sequestration, or of both, and could incremental funding or some other 
mechanism be used to mitigate?
    Admiral Greenert. [The information was not available at the time of 
printing.]
    Mr. Langevin. I'm also deeply concerned about the reference in your 
testimony to a delay in the procurement of the first SSBN(X) by a year. 
As we've heard over and over, these boats are not just a critical Navy 
need, but a national strategic requirement as the most survivable part 
of our deterrent. Can you elaborate as to the effects of any further 
delay in the program, and what mitigating steps would, at a minimum, be 
needed?
    Admiral Greenert. [The information was not available at the time of 
printing.]
    Mr. Langevin. As DOD implements the Secretary's planned 20% cuts to 
headquarters, how will the Department balance these cuts among 
contractor, military, and civilian employees? Does the Department have 
sufficient visibility into the size and cost of the contractor 
workforce in headquarters roles?
    Admiral Greenert. [The information was not available at the time of 
printing.]
    Mr. Langevin. As you are all aware, defending investments in 
research and development can be very difficult since the investments, 
while crucial to future capabilities, are necessarily speculative in 
nature, and don't have much of the bureaucratic support or immediate 
impact of, say, an increase or decrease in an active procurement 
program. Can each of you speak to the ways in which the services and 
the Department have valued R&D and STEM investments in your budgetary 
deliberations, as well as the pressures that sequestration's budgetary 
bottom lines and across-the-board nature have placed on those 
activities? How has the Department weighed the risk factors of 
decreasing or increasing R&D and STEM relative to other investments, 
particularly given the hard budgetary futures that you are examining?
    Admiral Greenert. [The information was not available at the time of 
printing.]
    Mr. Langevin. Can each of you address the effects of continued 
sequestration on cyberspace activities and how you intend to manage the 
fiscal pressures given increasing demands in this regime, particularly 
in light of the reports of CYBERCOM's plan to grow the number of cyber 
operators?
    Admiral Greenert. [The information was not available at the time of 
printing.]
    Mr. Langevin. As DOD implements the Secretary's planned 20% cuts to 
headquarters, how will the Department balance these cuts among 
contractor, military, and civilian employees? Does the Department have 
sufficient visibility into the size and cost of the contractor 
workforce in headquarters roles?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. Langevin. As you are all aware, defending investments in 
research and development can be very difficult since the investments, 
while crucial to future capabilities, are necessarily speculative in 
nature, and don't have much of the bureaucratic support or immediate 
impact of, say, an increase or decrease in an active procurement 
program. Can each of you speak to the ways in which the services and 
the Department have valued R&D and STEM investments in your budgetary 
deliberations, as well as the pressures that sequestration's budgetary 
bottom lines and across-the-board nature have placed on those 
activities? How has the Department weighed the risk factors of 
decreasing or increasing R&D and STEM relative to other investments, 
particularly given the hard budgetary futures that you are examining?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. Langevin. Can each of you address the effects of continued 
sequestration on cyberspace activities and how you intend to manage the 
fiscal pressures given increasing demands in this regime, particularly 
in light of the reports of CYBERCOM's plan to grow the number of cyber 
operators?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. Langevin. As DOD implements the Secretary's planned 20% cuts to 
headquarters, how will the Department balance these cuts among 
contractor, military, and civilian employees? Does the Department have 
sufficient visibility into the size and cost of the contractor 
workforce in headquarters roles?
    General Amos. [The information was not available at the time of 
printing.]
    Mr. Langevin. As you are all aware, defending investments in 
research and development can be very difficult since the investments, 
while crucial to future capabilities, are necessarily speculative in 
nature, and don't have much of the bureaucratic support or immediate 
impact of, say, an increase or decrease in an active procurement 
program. Can each of you speak to the ways in which the services and 
the Department have valued R&D and STEM investments in your budgetary 
deliberations, as well as the pressures that sequestration's budgetary 
bottom lines and across-the-board nature have placed on those 
activities? How has the Department weighed the risk factors of 
decreasing or increasing R&D and STEM relative to other investments, 
particularly given the hard budgetary futures that you are examining?
    General Amos. [The information was not available at the time of 
printing.]
    Mr. Langevin. Can each of you address the effects of continued 
sequestration on cyberspace activities and how you intend to manage the 
fiscal pressures given increasing demands in this regime, particularly 
in light of the reports of CYBERCOM's plan to grow the number of cyber 
operators?
    General Amos. [The information was not available at the time of 
printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. I would like to know more about SCMR results with 
respect to the Asia-Pacific rebalance. Can you please elaborate on the 
impacts of competing resources with respect to our commitment to the 
Pacific region? I am concerned that our commitment may appear to be 
nothing more than rhetoric to our allies in the region. I have had 
numerous meetings with senior officials from Asia-Pacific region that 
have valid concerns. I want to know that we will begin to see tangible 
actions that support our statements emphasizing our support in the 
region.
    General Odierno. [The information was not available at the time of 
printing.]
    Ms. Bordallo. I supported an Andrews amendment to the FY14 NDAA at 
the House markup to extend a cap on service contracting by two 
additional years. I understand that GAO staff briefed Congressional 
staff last week, and they reported that the Department spent at least 
$1.34 billion more than allowed under law for service contracts and 
that there is little evidence that the Department is making the 
specific cuts in service contract spending required by the law. Worse, 
it has been speculated that elimination of the caps' loopholes would 
result in even more overspending. Perhaps most concerning is that DOD 
officials acknowledged to GAO a lack of fiscal controls that would 
allow them to satisfactorily comply with the cap. How can we achieve 
greater transparency over service contract costs so that we can impose 
and actually enforce caps and cuts in service contract spending? Given 
this GAO report, is there any reason to think that DOD will actually 
cut service contract spending as the Department downsizes, as opposed 
to disproportionately cutting spending on civilians and military?
    General Odierno. [The information was not available at the time of 
printing.]
    Ms. Bordallo. In recent correspondence, House Defense 
Appropriations Subcommittee Chairman Young expressed concern to 
Secretary Hagel that the Pentagon's planned cuts for headquarters were 
focused disproportionately on the civilians and the military, but not 
on the contractors. That doesn't make any sense. In June, Comptroller 
Hale conceded in Senate testimony that contractors cost two to three 
times civilians. What assurance can you provide that the headquarters 
cuts and cuts generally undertaken by the Department will take into 
account contractors as well as civilians and military? The Department 
was required in 2007 to establish an inventory of service contracts in 
order to better understand the cost and size of the contractor 
workforce. When will that inventory be complete and how is it being 
used to inform the Pentagon's budget-cutting efforts? For example, how 
many contractors work in headquarters and how much do they cost? 
Presumably, the Pentagon wants to cut the contractor workforce by the 
same 20% as it intends to cut the civilian and military workforces?
    General Odierno. [The information was not available at the time of 
printing.]
    Ms. Bordallo. The size and cost of military and civilian personnel 
in your component's management headquarters workforce are known. How 
many contractor employees are included in your component's management 
headquarters workforce, what is their total cost, and what is the 
average cost of a contractor employee in your component's management 
headquarters workforce? Will your component's answers be based on the 
inventory of contract services? Are your component's answers to those 
questions regarding the size and cost of service contractors reliable, 
comprehensive, and well-informed? If not, how can your component 
properly determine the extent to which your component should reduce its 
reliance on contractor personnel?
    General Odierno. [The information was not available at the time of 
printing.]
    Ms. Bordallo. Both the Congress and the Administration have 
identified instances in which contractor personnel are inappropriately 
performing functions that are inherently governmental, closely 
associated with inherently governmental, and critical. Will your 
component take into account instances in which contractor personnel in 
the management headquarters workforce should be reduced because they 
are performing inappropriate functions?
    General Odierno. [The information was not available at the time of 
printing.]
    Ms. Bordallo. In recent testimony before the Senate Defense 
Appropriations Subcommittee, the Secretary and the Comptroller agreed 
that contractors are significantly more expensive than civilian 
personnel, particularly for the provision of long-term services. To 
what extent will your component generate savings in management 
headquarters workforce spending through insourcing, consistent with 10 
USC 2463?
    General Odierno. [The information was not available at the time of 
printing.]
    Ms. Bordallo. Are non-civilian personnel involved in making 
recommendations for reductions in total headquarters budgets? If so, 
how have the inevitable conflicts of interests been addressed?
    General Odierno. [The information was not available at the time of 
printing.]
    Ms. Bordallo. To what extent does your component have a policy of 
reviewing service contracts for savings when confronted with a 
requirement to furlough civilian personnel with the objective of using 
savings from service contracts (e.g., cancelling low-priority contracts 
or imposing deductive changes on such contracts) to offset the need to 
impose furloughs? If your component engaged in such efforts in FY13, 
when did such reviews occur, and what were the results of those 
reviews?
    General Odierno. [The information was not available at the time of 
printing.]
    Ms. Bordallo. The Army's historic leadership on the inventory of 
contract services does the Army great credit. Taxpayers have a 
significant interest in the inventory finally being implemented. Is the 
Army continuing to fulfill its commitment to assist OSD in leveraging 
the Contract Manpower Reporting Allocation for implementation across 
the Department? And is OSD continuing to facilitate this effort? Is the 
Army using the significant cost data it has collected already to inform 
its performance decisions, consistent with the DOD Instruction 7041.04? 
And is the Army using the cost data and the Plan for Documentation of 
Contractors for budget projections?
    General Odierno. [The information was not available at the time of 
printing.]
    Ms. Bordallo. Section 808 of the FY12 National Defense 
Authorization Act imposed a cap on the amount of money that could be 
spent on service contracts in FY12 and FY13. To what extent in FY12 did 
the Army over-execute spending on service contracts and under-execute 
spending on civilian personnel? Will the Army be able to improve upon 
that performance in FY13?
    General Odierno. [The information was not available at the time of 
printing.]
    Ms. Bordallo. In an April 1 letter to the American Federation of 
Government Employees, Secretary McHugh wrote: ``. . . I have 
temporarily adjusted certain of the Army's restrictions on the use of 
(Borrowed Military Manpower, BMM) . . . Please be assured that my 
action is intended only as a short-term solution--the temporary 
modification of the Army's BMM policy to address emergency requirements 
associated with the current budgetary situation does not contemplate 
the permanent conversion to military performance of work presently 
allocated to civilian employees. Further, Army prerequisites to the use 
of BMM remain compliant with the 2012 Under Secretary of Defense for 
Personnel and Readiness policy.'' Will the Army continue to use BMM 
consistent with the commitments Secretary McHugh made in his 
correspondence--principally, that any use of BMM will be temporary 
because of emergency budget requirements and that Army policy will be 
compliant with the 2012 OSD policy?
    General Odierno. [The information was not available at the time of 
printing.]
    Ms. Bordallo. According to the DOD Deputy Secretary's July 31 
memorandum, the OSD Organizational Review is intended to achieve a 20% 
cut in ``total headquarters budgets.'' However, in the Army's 
memorandum of August 14, you and Secretary McHugh write that it is 
necessary ``to determine how to reduce Army headquarters (both 
institutional and operational, at the 2-star and above levels) in the 
aggregate by 25%.'' The 20% cut called for by the Deputy Secretary is 
completely arbitrary, of course, but what analysis supports even 
greater cuts in the Army than in the other components?
    General Odierno. [The information was not available at the time of 
printing.]
    Ms. Bordallo. Your August 14 memorandum directs the establishment 
of ``specific targets for each focus area in dollars and full-time 
equivalents (FTE) . . .'' However, your memorandum never uses the word 
``contractor.'' Even the Deputy Secretary's July 31 memorandum 
acknowledges that reductions must include service contractor personnel: 
``Total headquarters budgets include government civilian personnel who 
work at headquarters and associated costs including contract services . 
. .'' How will the Army be taking into account the size and cost of 
contractor personnel in the management headquarters workforce in the 
development of recommendations?
    General Odierno. [The information was not available at the time of 
printing.]
    Ms. Bordallo. I would like to know more about SCMR results with 
respect to the Asia-Pacific rebalance. Can you please elaborate on the 
impacts of competing resources with respect to our commitment to the 
Pacific region? I am concerned that our commitment may appear to be 
nothing more than rhetoric to our allies in the region. I have had 
numerous meetings with senior officials from Asia-Pacific region that 
have valid concerns. I want to know that we will begin to see tangible 
actions that support our statements emphasizing our support in the 
region.
    Ms. Bordallo. I would like to know more about SCMR results with 
respect to the Asia-Pacific rebalance. Can you please elaborate on the 
impacts of competing resources with respect to our commitment to the 
Pacific region? I am concerned that our commitment may appear to be 
nothing more than rhetoric to our allies in the region. I have had 
numerous meetings with senior officials from Asia-Pacific region that 
have valid concerns. I want to know that we will begin to see tangible 
actions that support our statements emphasizing our support in the 
region.
    Admiral Greenert. [The information was not available at the time of 
printing.]
    Ms. Bordallo. I supported an Andrews amendment to the FY14 NDAA at 
the House markup to extend a cap on service contracting by two 
additional years. I understand that GAO staff briefed Congressional 
staff last week, and they reported that the Department spent at least 
$1.34 billion more than allowed under law for service contracts and 
that there is little evidence that the Department is making the 
specific cuts in service contract spending required by the law. Worse, 
it has been speculated that elimination of the caps' loopholes would 
result in even more overspending. Perhaps most concerning is that DOD 
officials acknowledged to GAO a lack of fiscal controls that would 
allow them to satisfactorily comply with the cap. How can we achieve 
greater transparency over service contract costs so that we can impose 
and actually enforce caps and cuts in service contract spending? Given 
this GAO report, is there any reason to think that DOD will actually 
cut service contract spending as the Department downsizes, as opposed 
to disproportionately cutting spending on civilians and military?
    Admiral Greenert. [The information was not available at the time of 
printing.]
    Ms. Bordallo. In recent correspondence, House Defense 
Appropriations Subcommittee Chairman Young expressed concern to 
Secretary Hagel that the Pentagon's planned cuts for headquarters were 
focused disproportionately on the civilians and the military, but not 
on the contractors. That doesn't make any sense. In June, Comptroller 
Hale conceded in Senate testimony that contractors cost two to three 
times civilians. What assurance can you provide that the headquarters 
cuts and cuts generally undertaken by the Department will take into 
account contractors as well as civilians and military? The Department 
was required in 2007 to establish an inventory of service contracts in 
order to better understand the cost and size of the contractor 
workforce. When will that inventory be complete and how is it being 
used to inform the Pentagon's budget-cutting efforts? For example, how 
many contractors work in headquarters and how much do they cost? 
Presumably, the Pentagon wants to cut the contractor workforce by the 
same 20% as it intends to cut the civilian and military workforces?
    Admiral Greenert. [The information was not available at the time of 
printing.]
    Ms. Bordallo. The size and cost of military and civilian personnel 
in your component's management headquarters workforce are known. How 
many contractor employees are included in your component's management 
headquarters workforce, what is their total cost, and what is the 
average cost of a contractor employee in your component's management 
headquarters workforce? Will your component's answers be based on the 
inventory of contract services? Are your component's answers to those 
questions regarding the size and cost of service contractors reliable, 
comprehensive, and well-informed? If not, how can your component 
properly determine the extent to which your component should reduce its 
reliance on contractor personnel?
    Admiral Greenert. [The information was not available at the time of 
printing.]
    Ms. Bordallo. Both the Congress and the Administration have 
identified instances in which contractor personnel are inappropriately 
performing functions that are inherently governmental, closely 
associated with inherently governmental, and critical. Will your 
component take into account instances in which contractor personnel in 
the management headquarters workforce should be reduced because they 
are performing inappropriate functions?
    Admiral Greenert. [The information was not available at the time of 
printing.]
    Ms. Bordallo. In recent testimony before the Senate Defense 
Appropriations Subcommittee, the Secretary and the Comptroller agreed 
that contractors are significantly more expensive than civilian 
personnel, particularly for the provision of long-term services. To 
what extent will your component generate savings in management 
headquarters workforce spending through insourcing, consistent with 10 
USC 2463?
    Admiral Greenert. [The information was not available at the time of 
printing.]
    Ms. Bordallo. Are non-civilian personnel involved in making 
recommendations for reductions in total headquarters budgets? If so, 
how have the inevitable conflicts of interests been addressed?
    Admiral Greenert. [The information was not available at the time of 
printing.]
    Ms. Bordallo. To what extent does your component have a policy of 
reviewing service contracts for savings when confronted with a 
requirement to furlough civilian personnel with the objective of using 
savings from service contracts (e.g., cancelling low-priority contracts 
or imposing deductive changes on such contracts) to offset the need to 
impose furloughs? If your component engaged in such efforts in FY13, 
when did such reviews occur, and what were the results of those 
reviews?
    Admiral Greenert. [The information was not available at the time of 
printing.]
    General Welsh. [The information was not available at the time of 
printing.]
    Ms. Bordallo. I know the Air Force has been challenged with 
modernization needs. Recent world events, and the desire to minimize 
boots on the ground, highlight the need for a Long Range Strike 
capability. As a co-chair of the House Long Range Strike Caucus, I want 
to know how you intend to protect funding for the NextGen bomber? Can 
you elaborate on the importance of this program to the future of the 
Air Force?
    General Welsh. [The information was not available at the time of 
printing.]
    Ms. Bordallo. I supported an Andrews amendment to the FY14 NDAA at 
the House markup to extend a cap on service contracting by two 
additional years. I understand that GAO staff briefed Congressional 
staff last week, and they reported that the Department spent at least 
$1.34 billion more than allowed under law for service contracts and 
that there is little evidence that the Department is making the 
specific cuts in service contract spending required by the law. Worse, 
it has been speculated that elimination of the caps' loopholes would 
result in even more overspending. Perhaps most concerning is that DOD 
officials acknowledged to GAO a lack of fiscal controls that would 
allow them to satisfactorily comply with the cap. How can we achieve 
greater transparency over service contract costs so that we can impose 
and actually enforce caps and cuts in service contract spending? Given 
this GAO report, is there any reason to think that DOD will actually 
cut service contract spending as the Department downsizes, as opposed 
to disproportionately cutting spending on civilians and military?
    General Welsh. [The information was not available at the time of 
printing.]
    Ms. Bordallo. In recent correspondence, House Defense 
Appropriations Subcommittee Chairman Young expressed concern to 
Secretary Hagel that the Pentagon's planned cuts for headquarters were 
focused disproportionately on the civilians and the military, but not 
on the contractors. That doesn't make any sense. In June, Comptroller 
Hale conceded in Senate testimony that contractors cost two to three 
times civilians. What assurance can you provide that the headquarters 
cuts and cuts generally undertaken by the Department will take into 
account contractors as well as civilians and military? The Department 
was required in 2007 to establish an inventory of service contracts in 
order to better understand the cost and size of the contractor 
workforce. When will that inventory be complete and how is it being 
used to inform the Pentagon's budget-cutting efforts? For example, how 
many contractors work in headquarters and how much do they cost? 
Presumably, the Pentagon wants to cut the contractor workforce by the 
same 20% as it intends to cut the civilian and military workforces?
    General Welsh. [The information was not available at the time of 
printing.]
    Ms. Bordallo. The size and cost of military and civilian personnel 
in your component's management headquarters workforce are known. How 
many contractor employees are included in your component's management 
headquarters workforce, what is their total cost, and what is the 
average cost of a contractor employee in your component's management 
headquarters workforce? Will your component's answers be based on the 
inventory of contract services? Are your component's answers to those 
questions regarding the size and cost of service contractors reliable, 
comprehensive, and well-informed? If not, how can your component 
properly determine the extent to which your component should reduce its 
reliance on contractor personnel?
    General Welsh. [The information was not available at the time of 
printing.]
    Ms. Bordallo. Both the Congress and the Administration have 
identified instances in which contractor personnel are inappropriately 
performing functions that are inherently governmental, closely 
associated with inherently governmental, and critical. Will your 
component take into account instances in which contractor personnel in 
the management headquarters workforce should be reduced because they 
are performing inappropriate functions?
    General Welsh. [The information was not available at the time of 
printing.]
    Ms. Bordallo. In recent testimony before the Senate Defense 
Appropriations Subcommittee, the Secretary and the Comptroller agreed 
that contractors are significantly more expensive than civilian 
personnel, particularly for the provision of long-term services. To 
what extent will your component generate savings in management 
headquarters workforce spending through insourcing, consistent with 10 
USC 2463?
    General Welsh. [The information was not available at the time of 
printing.]
    Ms. Bordallo. Are non-civilian personnel involved in making 
recommendations for reductions in total headquarters budgets? If so, 
how have the inevitable conflicts of interests been addressed?
    General Welsh. [The information was not available at the time of 
printing.]
    Ms. Bordallo. To what extent does your component have a policy of 
reviewing service contracts for savings when confronted with a 
requirement to furlough civilian personnel with the objective of using 
savings from service contracts (e.g., cancelling low-priority contracts 
or imposing deductive changes on such contracts) to offset the need to 
impose furloughs? If your component engaged in such efforts in FY13, 
when did such reviews occur, and what were the results of those 
reviews?
    General Welsh. [The information was not available at the time of 
printing.]
    Ms. Bordallo. I would like to know more about SCMR results with 
respect to the Asia-Pacific rebalance. Can you please elaborate on the 
impacts of competing resources with respect to our commitment to the 
Pacific region? I am concerned that our commitment may appear to be 
nothing more than rhetoric to our allies in the region. I have had 
numerous meetings with senior officials from Asia-Pacific region that 
have valid concerns. I want to know that we will begin to see tangible 
actions that support our statements emphasizing our support in the 
region.
    General Amos. [The information was not available at the time of 
printing.]
    Ms. Bordallo. I supported an Andrews amendment to the FY14 NDAA at 
the House markup to extend a cap on service contracting by two 
additional years. I understand that GAO staff briefed Congressional 
staff last week, and they reported that the Department spent at least 
$1.34 billion more than allowed under law for service contracts and 
that there is little evidence that the Department is making the 
specific cuts in service contract spending required by the law. Worse, 
it has been speculated that elimination of the caps' loopholes would 
result in even more overspending. Perhaps most concerning is that DOD 
officials acknowledged to GAO a lack of fiscal controls that would 
allow them to satisfactorily comply with the cap. How can we achieve 
greater transparency over service contract costs so that we can impose 
and actually enforce caps and cuts in service contract spending? Given 
this GAO report, is there any reason to think that DOD will actually 
cut service contract spending as the Department downsizes, as opposed 
to disproportionately cutting spending on civilians and military?
    General Amos. [The information was not available at the time of 
printing.]
    Ms. Bordallo. In recent correspondence, House Defense 
Appropriations Subcommittee Chairman Young expressed concern to 
Secretary Hagel that the Pentagon's planned cuts for headquarters were 
focused disproportionately on the civilians and the military, but not 
on the contractors. That doesn't make any sense. In June, Comptroller 
Hale conceded in Senate testimony that contractors cost two to three 
times civilians. What assurance can you provide that the headquarters 
cuts and cuts generally undertaken by the Department will take into 
account contractors as well as civilians and military? The Department 
was required in 2007 to establish an inventory of service contracts in 
order to better understand the cost and size of the contractor 
workforce. When will that inventory be complete and how is it being 
used to inform the Pentagon's budget-cutting efforts? For example, how 
many contractors work in headquarters and how much do they cost? 
Presumably, the Pentagon wants to cut the contractor workforce by the 
same 20% as it intends to cut the civilian and military workforces?
    General Amos. [The information was not available at the time of 
printing.]
    Ms. Bordallo. The size and cost of military and civilian personnel 
in your component's management headquarters workforce are known. How 
many contractor employees are included in your component's management 
headquarters workforce, what is their total cost, and what is the 
average cost of a contractor employee in your component's management 
headquarters workforce? Will your component's answers be based on the 
inventory of contract services? Are your component's answers to those 
questions regarding the size and cost of service contractors reliable, 
comprehensive, and well-informed? If not, how can your component 
properly determine the extent to which your component should reduce its 
reliance on contractor personnel?
    General Amos. [The information was not available at the time of 
printing.]
    Ms. Bordallo. Both the Congress and the Administration have 
identified instances in which contractor personnel are inappropriately 
performing functions that are inherently governmental, closely 
associated with inherently governmental, and critical. Will your 
component take into account instances in which contractor personnel in 
the management headquarters workforce should be reduced because they 
are performing inappropriate functions?
    General Amos. [The information was not available at the time of 
printing.]
    Ms. Bordallo. In recent testimony before the Senate Defense 
Appropriations Subcommittee, the Secretary and the Comptroller agreed 
that contractors are significantly more expensive than civilian 
personnel, particularly for the provision of long-term services. To 
what extent will your component generate savings in management 
headquarters workforce spending through insourcing, consistent with 10 
USC 2463?
    General Amos. [The information was not available at the time of 
printing.]
    Ms. Bordallo. Are non-civilian personnel involved in making 
recommendations for reductions in total headquarters budgets? If so, 
how have the inevitable conflicts of interests been addressed?
    General Amos. [The information was not available at the time of 
printing.]
    Ms. Bordallo. To what extent does your component have a policy of 
reviewing service contracts for savings when confronted with a 
requirement to furlough civilian personnel with the objective of using 
savings from service contracts (e.g., cancelling low-priority contracts 
or imposing deductive changes on such contracts) to offset the need to 
impose furloughs? If your component engaged in such efforts in FY13, 
when did such reviews occur, and what were the results of those 
reviews?
    General Amos. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. Why is the Army terminating the Modernization Thru 
Spare Program (PAC-2 convergence to GEM-T) in FY13 when the Average Per 
Unit Cost (APU) is $560K to upgrade an existing asset to GEM-T 
Configuration compared to a new PAC-3 Procurement at $3.3M+ during 
these times of great fiscal austerity?
    General Odierno. [The information was not available at the time of 
printing.]
    Mr. Shuster. Sequestration resulted in 6 days of unpaid furlough 
for DOD civilians. Even though this was not as harsh as the original 
predicted 22 days, these civilians lost faith and trust in our 
leadership leaving morale at an all-time low. What is being done to 
blunt the effects of possible future furloughs as the highest quality 
personnel of our civilian workforce are already seeking employment in 
the private sector? More specifically, how are we going to preserve the 
competent, skilled workforce who will be needed to reset, maintain and 
modernize an ever-growing backlog at our depots and arsenals?
    General Odierno. [The information was not available at the time of 
printing.]
    Mr. Shuster. Sequestration resulted in 6 days of unpaid furlough 
for DOD civilians. Even though this was not as harsh as the original 
predicted 22 days, these civilians lost faith and trust in our 
leadership leaving morale at an all-time low. What is being done to 
blunt the effects of possible future furloughs as the highest quality 
personnel of our civilian workforce are already seeking employment in 
the private sector? More specifically, how are we going to preserve the 
competent, skilled workforce who will be needed to reset, maintain and 
modernize an ever-growing backlog at our depots and arsenals?
    Admiral Greenert. [The information was not available at the time of 
printing.]
    Mr. Shuster. Sequestration resulted in 6 days of unpaid furlough 
for DOD civilians. Even though this was not as harsh as the original 
predicted 22 days, these civilians lost faith and trust in our 
leadership leaving morale at an all-time low. What is being done to 
blunt the effects of possible future furloughs as the highest quality 
personnel of our civilian workforce are already seeking employment in 
the private sector? More specifically, how are we going to preserve the 
competent, skilled workforce who will be needed to reset, maintain and 
modernize an ever-growing backlog at our depots and arsenals?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. Shuster. Sequestration resulted in 6 days of unpaid furlough 
for DOD civilians. Even though this was not as harsh as the original 
predicted 22 days, these civilians lost faith and trust in our 
leadership leaving morale at an all-time low. What is being done to 
blunt the effects of possible future furloughs as the highest quality 
personnel of our civilian workforce are already seeking employment in 
the private sector? More specifically, how are we going to preserve the 
competent, skilled workforce who will be needed to reset, maintain and 
modernize an ever-growing backlog at our depots and arsenals?
    General Amos. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. General Welsh, some recent internal Pentagon reviews 
have discussed delaying the next procurement of Space Based Infrared 
Systems and Advanced Extremely High Frequency satellites. With long 
development timelines, and aging on-orbit constellations, how do you 
ensure you will continue to provide these critical capabilities to the 
warfighter? What is the risk if you are unable to provide missile 
warning and secure communication capabilities?
    General Welsh. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BARBER
    Mr. Barber. General Welsh, can you please provide data on the 
number of close air support missions conducted by airframe for 
Operations Iraqi Freedom and Enduring Freedom. Include data of missions 
by airframe that were ``danger close'' in support of ``troops in 
contact.'' Where the data exist, include the type of control used to 
execute the close air support mission.
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. Barber. General Welsh, in public, Army and Marine commanders 
have advocated for maintaining close air support capability, 
specifically the A-10, within the Air Force. In proposing to divest the 
Air Force of the entire fleet of A-10s, have the sister service chiefs 
been officially sought for comment on the proposed divestiture and loss 
of capability? If so, what have their responses been?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. Barber. General Welsh, has the Air Force conducted relevant 
simulations to ensure the F-35 can appropriately replace the A-10's 
role in close air support, combat search and rescue (CSAR) support, 
strike coordination and recon (SCAR), and as a forward air controller 
(airborne)?
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. Barber. General Welsh, in recent months, it has been brought to 
my attention that the Air Force is considering transferring the Combat 
Search and Rescue (CSAR) mission from the Air Combat Command (ACC) to 
Air Force Special Operations Command (AFSOC). The transition would also 
change the primary CSAR aircraft from the HH-60 to the CV-22 Osprey. 
Members within the CSAR community have expressed concern that the CV-22 
Osprey is wholly unsuited for the CSAR mission given the tremendous 
downdraft created by the airframe in hover mode. Has the Air Force 
conducted appropriate, comparative simulations and testing to ensure 
the CV-22 is the best airframe to conduct the CSAR mission? Please 
provide the results of the simulation and testing.
    General Welsh. [The information was not available at the time of 
printing.]
                                 ______
                                 
                  QUESTION SUBMITTED BY MS. DUCKWORTH
    Ms. Duckworth. Due to sequestration, the Air Force recently 
cancelled its SpaceFence program with no indication of when or if at 
all it will resume the program or if it will begin to build the next-
generation program. Can you address the strategic significance of a 
loss of this kind?
    General Welsh. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. RUNYAN
    Mr. Runyan. General Welsh, no one needs to remind you of the 
importance of our space systems to the warfighter. In light of the 
criticality of these systems, can you describe the importance of space 
situational awareness? And also, please describe how the future Space 
Fence will contribute to that mission, and how that program is affected 
by the Strategic Choices and Management Review.
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. Runyan. General Welsh, if we know the warfighter needs the 
Space Fence, why are is the Department delaying the acquisition of a 
critical capability? It would seem that we need to find the money 
elsewhere, rather than delay this important program.
    General Welsh. [The information was not available at the time of 
printing.]
    Mr. Runyan. General Welsh, I have been hearing rumblings that one 
of the platforms you are looking at cutting completely is the KC-10 
tanker. This was also included as part of an Air Force Times article 
earlier this week: ``AF Considers Scrapping A-10s, KC-10s, F-15Cs, CSAR 
Helos.'' The KC-10 platform has more than proved itself a workhorse in 
support of air refueling in Iraq, Afghanistan, homeland defense and 
other missions as called upon. It can refuel Air Force, Navy, and 
international military aircraft with its dual boom and hose-and-drogue 
systems. I am proud to have Joint Base McGuire-Dix-Lakehurst (JB MDL) 
in my District, which as you know is home to the KC-10, supporting the 
Northeast Tanker Corridor and various overseas deployments.
    With the new tanker coming online slower than expected, and the 
fact that there is no decrease in refueling demand, for the record what 
are your plans for this critical platform? Is there programmed funding 
in FY15 in support of this vital refueling asset? I would like to meet 
with you personally on this issue in the near future.
    General Welsh. [The information was not available at the time of 
printing.]

                                  <all>

</pre></body></html>
